APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion in the Supreme Court of
Kentucky
(March 26, 2020) . . . . . . . . . . . . . . App. 1
Appendix B Order Denying Appellant’s Multiple
Motions to Waive Claim of Intellectual
Disability
(March 26, 2020) . . . . . . . . . . . . . App. 13
Appendix C Order in the Supreme Court of the
United States
(January 14, 2019) . . . . . . . . . . . App. 15
Appendix D Opinion in the Supreme Court of
Kentucky
(August 24, 2017) . . . . . . . . . . . . App. 16
Appendix E Opinion and Order in the Jefferson
Circuit Court Division Two
(September 15, 2014) . . . . . . . . . App. 69
Appendix F Motion for New Trial and Judgment
Notwithstanding the Verdict in the
Jefferson Circuit Court Division Two
(August 4, 2014) . . . . . . . . . . . . . App. 87
Appendix G Motion to Exclude Death as Possible
Punishment Based Upon Defendant’s
Previous Borderline IQ Testing and
Recent Opinion of Supreme Court in
Hall v. Florida in the Jefferson Circuit
Court Division Two
(July 28, 2014). . . . . . . . . . . . . . App. 103

ii
Appendix H Pro Se Filing
(May 21, 2019). . . . . . . . . . . . . . App. 107
Appendix I Pro Se Filing
(July 1, 2019). . . . . . . . . . . . . . . App. 109
Appendix J Pro Se Filing
(July 5, 2019). . . . . . . . . . . . . . . App. 112
Appendix K Pro Se Filing
(August 16, 2019) . . . . . . . . . . . App. 115
Appendix L Pro Se Filing
(January 24, 2020) . . . . . . . . . . App. 119

App. 1

APPENDIX A
RENDERED: MARCH 26, 2020
TO BE PUBLISHED
Supreme Court of Kentucky
2014-SC-000725-MR
_________________________________________
LARRY LAMONT WHITE
)
)
APPELLANT
)
)
V.
)
)
COMMONWEALTH OF KENTUCKY
)
)
APPELLEE
)
_________________________________________ )
ON REMAND FROM THE UNITED STATES
SUPREME COURT
CASE NO. 17-9467
JEFFERSON CIRCUIT COURT CASE NO. 07-CR004230
OPINION OF THE COURT
BY JUSTICE VANMETER
REVERSING AND REMANDING
In 2014, Larry Lamont White was convicted of rape
in the first degree and murder for the 1983 killing of
Pamela Armstrong. The jury recommended a sentence

App. 2
of death for Armstrong’s murder and twenty years’
imprisonment for the rape. After our affirmance of his
matter of right1 appeal, the United States Supreme
Court vacated the judgment, and remanded White’s
case back to this Court for further consideration in
light of Moore v. Texas, 137 S. Ct. 1039, 197 L. Ed. 2d
416 (2017), and its analysis regarding the execution of
intellectually disabled defendants. Since the Supreme
Court’s remand, White has also pro se asked this Court
to waive his intellectual disability claim, so he can
move forward with post-conviction proceedings. After
additional review of the record, and recent Kentucky
and federal case law, we hold that—due to his death
sentence—White may not pro se waive his pending
intellectual disability claim. Further, based on the
holdings of Moore and Woodall v. Commonwealth, 563
S.W.3d 1 (Ky. 2018), White has produced enough
evidence to form a reasonable doubt as to his
intellectual capabilities so as to warrant a hearing on
the issue. Thus, we remand this case to the Jefferson
Circuit Court with instructions to conduct an
evidentiary hearing on White’s intellectual disability
claim.
I. Factual and Procedural Background.
The facts of this case are set out by this Court in its
original opinion as follows:
Armstrong was murdered on June 4, 1983. Her
body was discovered that same day in a public
alley, with her pants and underwear pulled
down around her legs and shirt pulled up to her
1

Ky. Const. § 110(2)(b).

App. 3
bra line. She suffered from two gunshot wounds.
One wound was observed on the left side of the
back of her head, while the other wound was in
virtually the same spot on the right side. The
medical examiner was unable to determine
which shot was fired first, but did opine that
neither shot alone would have caused immediate
death.
Although Appellant was originally a suspect,
Armstrong’s murder remained unsolved for more
than twenty years. Yet, in 2004, the Louisville
Metro Police Department (“LMPD”) Cold Case
Unit reopened Armstrong’s case. Through the
use of DNA profiling, Detectives sought to
eliminate suspects. LMPD officers were able to
obtain Appellant’s DNA from a cigar he
discarded during a traffic stop. Appellant’s DNA
profile matched the DNA profile found in
Armstrong’s panties.
On December 27, 2007, a Jefferson County
Grand Jury returned an indictment charging
Appellant with rape in the first degree and
murder. During the trial, DNA evidence and
evidence of Appellant’s other murder convictions
were introduced to the jury. On July 28, 2014,
Appellant was found guilty of both charges.
Appellant refused to participate during the
sentencing stage of his trial. The jury ultimately
found the existence of aggravating
circumstances and recommended a sentence of
death for Armstrong’s murder plus twenty years
for her rape. The trial court sentenced Appellant

App. 4
in conformity with the jury’s recommendation.
Appellant now appeals his conviction and
sentence as a matter of right pursuant to
§ 110(2)(b) of the Kentucky Constitution and
Kentucky Revised Statute (“KRS”) 532.075.
White v. Commonwealth, 544 S.W.3d 125, 133 (Ky.
2017), as modified (Mar. 22, 2018), cert. granted,
judgment vacated sub nom. White v. Kentucky, 139 S.
Ct. 532, 202 L. Ed. 2d 643 (2019), and abrogated by
Woodall v. Commonwealth, 563 S.W.3d 1 (Ky. 2018).
One year after our decision in White, we held that
KRS2 532.130(2)—the statute requiring a showing of an
IQ of 70 or less to determine intellectual
disability—was unconstitutional. Woodall, 563 S.W.3d
at 2. When the United States Supreme Court
remanded White’s case to this Court for
reconsideration in light of Moore v. Texas, 137 S. Ct.
1039, this Court ordered supplemental briefing on the
issue. White then pro se sent a letter to the Attorney
General, stating his disagreement with his attorneys’
decision to pursue an intellectual disability defense.
Thereafter, White pro se filed a “motion” with this
Court objecting to the intellectual disability defense
“asking this Court to dismiss the issue[,]” as he was not
“retarded” nor “guilty of this crime.” White
subsequently filed additional “motions” that both assert
similar arguments attempting to waive the intellectual
disability claim before this Court. We directed both
White’s appellate counsel and the Commonwealth to
file supplemental briefs regarding White’s ability to
2

Kentucky Revised Statutes.

App. 5
waive this claim. Both briefs were filed, and both issues
are now ripe for determination.
II. A Defendant Cannot Waive a Pending Claim
of Intellectual Disability in a Death Penalty
Case.
The Commonwealth argues that White has the
ability to pro se waive his claim of intellectual
disability currently pending before this Court. White’s
attorneys disagree. Both sides discuss, at length, the
relationship between attorney and client, and White’s
Sixth and Eighth Amendments rights. However, we
need not decide the broader attorney-client question of
whether a defendant can pro se waive any pending or
potential claim because we hold that Atkins v. Virginia,
536 U.S. 304, 122 S. Ct. 2242, 153 L. Ed. 2d 335 (2002),
and its progeny—extending to Moore—have placed an
absolute bar against imposing the death penalty on the
intellectually disabled.
“The Eighth Amendment of the United State
Constitution prohibits the execution of a person who
has an intellectual disability.” Woodall, 563 S.W.3d at
2–3 (citing Hall v. Florida, 572 U.S. 701, 704, 134 S.
Ct. 1986, 1990, 188 L. Ed. 2d 1007 (2014); Atkins, 536
U.S. at 321). The United States Supreme Court in Hall
v. Florida held that some punishments are prohibited
by the Eighth Amendment “as a categorical matter.” Id.
at 708. These punishments include 1) the
denaturalization of a natural-born citizen;
2) sentencing a juvenile to death; and 3) sentencing
“persons with [an] intellectual disability” to death. Id.
The Supreme Court expounded in Moore that “the
Constitution ‘restrict[s] . . . the State’s power to take

App. 6
the life of’ any intellectually disabled individual.” 137
S. Ct. at 1048 (quoting Atkins, 536 U.S. at 321). We
take the Moore court’s emphasis on “any” to include
any individual who has not yet been determined to
have an intellectual disability, but who is entitled to an
evidentiary hearing by showing “some evidence
creating a [reasonable] doubt as to whether he is
[intellectually disabled].” Wilson v. Commonwealth, 381
S.W.3d 180, 186 (Ky. 2012) (citation omitted); see also
Brumfield v. Cain, 135 S. Ct. 2269, 2281, 192 L. Ed. 2d
356 (2015) (favorably reviewing a Louisiana statute
which required a defendant to show a “reasonable
doubt as to his intellectual disability to be entitled to
an evidentiary hearing[]”) (citation omitted).
Moore further held that “[m]ild levels of intellectual
disability, although they may fall outside Texas
citizens’ consensus, nevertheless remain intellectual
disabilities, and States may not execute anyone in ‘the
entire category of [intellectually disabled] offenders[.]’”
137 S. Ct. at 1051 (quoting Roper v. Simmons, 543 U.S.
551, 563–64, 125 S. Ct. 1183, 1192, 161 L. Ed. 2d 1
(2005) (citations omitted) (emphasis added)). Thus,
when a punishment is prohibited by the Eighth
Amendment blocking an entire category of individuals
from a certain penalty, and evidence has been
established creating a reasonable doubt as to whether
a defendant is a member of that category, the issue
cannot be waived. Accordingly, as discussed infra,
because White has met his burden to receive an
evidentiary hearing on his intellectual disability claim,
this Court cannot allow him to pro se waive this issue,
as that would impose the death penalty on a potentially

App. 7
intellectually disabled defendant—something the
Commonwealth is without power to do.
III. White has Met the Burden to Receive an
Evidentiary Hearing Regarding his Intellectual
Capacity.
This Court was specifically directed to review
White’s intellectual disability claim under the standard
set forth in Moore, 137 S. Ct. 1039. We last reviewed
Moore in Woodall, wherein we declared KRS 532.130(2)
unconstitutional, holding that “a criminal defendant
automatically cannot be ruled intellectually disabled
and precluded from execution simply because he or she
has an IQ of 71 or above, even after adjustment for
statistical error[.]” 563 S.W.3d at 6. Thus, as a
preliminary matter, the statute we reviewed White’s
initial appeal under is no longer good law.
This Court, based on Moore, created the Woodall
test to provide guidance to all future courts of this
Commonwealth analyzing a claim of intellectual
disability. See id. at 6–7 (citing Moore, 137 S. Ct. at
1045). Under the Woodall test, a defendant must show
“(1) intellectual-functioning deficits (indicated by an IQ
score ‘approximately two standard deviations below the
mean’—i.e., a score of roughly 70—adjusted for the
‘standard error of measurement’; (2) adaptive deficits
(‘the inability to learn basic skills and adjust behavior
to changing circumstances,’); and (3) the onset of these
deficits while still a minor.” Id. at 6–7 (quoting Moore,
137 S. Ct. at 1045) (emphasis added). Lastly, “in
addition to ascertaining intellectual disability using
this test, prevailing medical standards should always
take precedence in a court’s determination.” Id. at 7.

App. 8
Under the first prong of the Woodall test, White has
produced two separate IQ scores obtained before he
turned 18. In 1971, when White was 12-years old, he
was administered the Wechsler Intelligence Scale for
Children (“WISC”) and achieved a full-scale IQ of 76.
Adjusted for the standard error of measurement,
White’s IQ score range was 71-81. While the
Commonwealth argues that White’s IQ range based on
his WISC score does not warrant an evidentiary
hearing, a 71 is as close as possible to being “roughly”
70. Id. at 6. Even assuming, arguendo, that 71 is not
“roughly” 70, White has also produced another score.
White was administered the Otis Quick-Scoring Mental
Ability Test (“Otis”), scoring a 73, soon after he was
administered the WISC test. Adjusted for the standard
error of measurement, White’s IQ score range for the
Otis test was 68-78, well within the requirements of
the first Woodall prong and earned while he was a
minor, thus meeting Woodall’s third prong. Id. at 7.
The Commonwealth contends that experts consider
the Otis exam to be both unreliable and unacceptable
for purposes of determining intellectual disability. See
John H. Blume et al., Protecting People with
Intellectual Disability from Wrongful Execution:
Guidelines for Competent Representation, 46 Hofstra L.
Rev. 1107, 1118–20 (2018) (discussing certain pitfalls
of the Otis examination). However, this is the opposite
argument the Commonwealth took regarding Otis IQ
scores in Bowling v. Commonwealth, 163 S.W.3d 361,
384 (Ky. 2005) (“Bowling IV”),3 wherein the
3

These Otis scores were also cited more recently in a different
opinion on Bowling’s case before this Court. Bowling v.
Commonwealth, 377 S.W.3d 529, 537 (Ky. 2012).

App. 9
Commonwealth advocated and this Court accepted that
two Otis IQ scores of 84 and 79 (the only two test scores
taken while the defendant was a juvenile) were enough
evidence to defeat the defendant’s intellectual
disability claim. See also Smith v. Ryan, 813 F.3d 1175,
1184–86 (9th Cir. 2016) (In Smith, previously cited
favorably by this Court in Woodall, the Ninth Circuit
reduced a sentence of death to life imprisonment based
partially on the defendant’s Otis test scores). While the
Otis test may have its critics, a deeper analysis of
White’s IQ scores is best reserved for an evidentiary
hearing at which time both sides can fully develop a
record regarding White’s two scores, his adaptive
deficits or lack thereof, and consideration of the
prevailing medical standards regarding intellectual
disabilities.
Woodall’s second prong, adaptive deficits, is less
developed in this case than previous cases in front of
our Court. Most of the evidence concerning this prong
stems from the same time period as White’s IQ scores.
This is most likely because White has spent all but four
of forty-three years of his adult life behind bars and has
not had an evidentiary hearing which could have
established these deficits or had a medical professional
observe his behavior to the extent necessary to
document adaptive deficits or lack thereof. White did
have issues adapting to school and never succeeded
there. He was graded as reading at a 2.4 grade level
and doing arithmetic at a 3.4 level while he was in
sixth grade. He was frequently truant. He was also
observed to show “a fairly primitive level of
socialization,” and distanced himself from family and
friends. While the lack of facts regarding any recent

App. 10
evidence of adaptive deficits is troublesome, this is
exactly what evidentiary hearings are designed for: to
gather more facts and expert assistance to explore
whether further evidence of adaptive deficits is
revealed. At the very least—combined with his low-end
IQ scores achieved while still a minor—White’s
potential adaptive deficits and lack of any substantial
contact with the outside world during adulthood
warrant further consideration in the form of an
evidentiary hearing at the trial court level.4 Finally,
Moore requires courts to “consult current medical
standards to determine intellectual disability,” and we
direct trial courts to review the Woodall test in light of
the prevailing medical standards at the time of the
evidentiary hearing. 137 S. Ct. at 1048; 563 S.W.3d at
7. Thus, adherence to previous judicial authority
analyzing medical standards in this realm is only
mandatory if it still comports with current medical
standards.

4

See Moore, 137 S. Ct. at 1050 (discussing that current medical
professionals “caution against reliance on adaptive strengths
developed ‘in a controlled setting,’ as a prison surely is. [Diagnostic
and Statistical Manual of Mental Disorders, Fifth Edition 38
(2013)] (‘Adaptive functioning may be difficult to assess in a
controlled setting (e.g., prisons, detention centers); if possible,
corroborative information reflecting functioning outside those
settings should be obtained.’); see [American Association on
Intellectual and Developmental Disabilities Clinical Manual,
Eleventh Edition 20 (2010)] (counseling against reliance on
‘behavior in jail or prison’)”).

App. 11
IV. White’s Concerns Regarding His Counsel.
White has shown a tendency to not cooperate with
counsel and has pro se asked this Court to replace his
current counsel multiple times. While we are not a factfinding court, we acknowledge White’s displeasure with
his current and former counsel, as well as his lack of
participation in the proceedings below. If, on remand,
White persists in expressing disagreement with his
counsel’s representation concerning his appeal, he may
request an evidentiary hearing regarding his
competency to self-represent. See Commonwealth v.
Mason, 130 A.3d 601, 671 (Pa. 2015) (discussing
options for intellectual disability claimant who
disagrees with counsel’s choice to pursue Atkins
defense).
V. Conclusion.
Since Woodall declared our statutory scheme in this
area unconstitutional under Moore and Hall, White’s
evidence suffices the reasonable doubt standard
entitling him to an evidentiary hearing on the matter
of his potential intellectual disability. His adjusted IQ
scores of 71 and 68 from when he was 12, alone are
enough to form a reasonable doubt as to his intellectual
capacity. Whether he has met the preponderance of the
evidence standard5 is a separate question to be
analyzed by the trial court as a fact finder through the
evidentiary hearing process. As no hearing has
5

“It is important to note that [even after receiving an evidentiary
hearing] the defendant still bears the burden of proving
intellectual disability by a preponderance of the evidence.”
Woodall, 563 S.W.3d at 6 n.29 (citation omitted).

App. 12
occurred, this Court withholds judgment until a
hearing has been conducted and a determination made.
All sitting. All concur.
COUNSEL FOR APPELLANT:
Timothy G. Arnold
Director, Post Trial Division
Department of Public Advocacy
Kathleen Kallaher Schmidt
Susan Jackson Balliet
Erin Hoffman Yang
Assistant Public Advocates
Department of Public Advocacy
COUNSEL FOR APPELLEE:
Daniel Jay Cameron
Attorney General of Kentucky
Stephanie Lynne McKeehan
Assistant Attorney General
Emily Lucas
Assistant Attorney General

App. 13

APPENDIX B
Supreme Court of Kentucky
2014-SC-000725-MR
[Filed: March 26, 2010]
_________________________________________
LARRY LAMONT WHITE
)
)
APPELLANT
)
)
V.
)
)
COMMONWEALTH OF KENTUCKY
)
)
APPELLEE
)
_________________________________________ )
ON REMAND FROM THE UNITED STATES
SUPREME COURT
CASE NO. 17-9467
JEFFERSON CIRCUIT COURT CASE
NO. 07-CR-004230
ORDER DENYING APPELLANT’S MULTIPLE
MOTIONS TO WAIVE CLAIM OF
INTELLECTUAL DISABILITY
Based on our published opinion in this case dated
March 26, 2020, Appellant’s multiple motions to waive
his claim of intellectual disability are DENIED.
All sitting. All concur.

App. 14
ENTERED: March 26, 2020.
/s/__________________________
CHIEF JUSTICE

App. 15

APPENDIX C
Cite as: 586 U. S. ____ (2019)
ALITO, J., dissenting
SUPREME COURT OF THE UNITED STATES
LARRY LAMONT WHITE v. KENTUCKY
ON PETITION FOR WRIT OF CERTIORARI TO
THE SUPREME COURT OF KENTUCKY
No. 17-9467. Decided January 14, 2019
The motion of petitioner for leave to proceed in
forma pauperis and the petition for a writ of certiorari
are granted. The judgment is vacated, and the case is
remanded to the Supreme Court of Kentucky for
further consideration in light of Moore v. Texas, 581
U.S. ___ (2017).
JUSTICE ALITO, with whom JUSTICE THOMAS
and JUSTICE GORSUCH join, dissenting.
The Court grants, vacates, and remands this case in
light of Moore v. Texas, 581 U. S. ___ (2017). But Moore
was handed down on March 28, 2017—almost five
months before the Supreme Court of Kentucky reached
a decision in this case. I would accordingly deny the
petition for the reasons previously stated in my dissent
in Kaushal v. Indiana dissenting opinion in Webster v.
Cooper, 558 U. S. 1039, 1040 (2009).

App. 16

APPENDIX D
Supreme Court of Kentucky.
2014-SC-000725-MR
[Filed: August 24, 2017]
______________________________________
Larry Lamont WHITE,
)
)
Appellant
)
)
v.
)
)
COMMONWEALTH of Kentucky,
)
)
Appellee
)
______________________________________ )
COUNSEL FOR APPELLANT; Susan Jackson Balliet,
Assistant Public Advocate, Erin Hoffman Yang,
Assistant Public Advocate. COUNSEL FOR
APPELLEE: Andy Beshear, Attorney General of
Kentucky, Jeffrey Allan Cross, Assistant Attorney
General, Emily Lucas, Assistant Attorney General.
Larry Lamont White, appeals from a judgment of the
Jefferson Circuit Court sentencing him to death for the
rape and murder of Pamela Armstrong.
Armstrong was murdered on June 4, 1983. Her body
was discovered that same day in a public alley, with
her pants and underwear pulled down around her legs
and shirt pulled up to her bra line. She suffered from

App. 17
two gunshot wounds. One wound was observed on the
left side of the back of her head, while the other wound
was in virtually the same spot on the right side. The
medical examiner was unable to determine which shot
was fired first, but did opine that neither shot alone
would have caused immediate death.
Although Appellant was originally; a suspect,
Armstrong’s murder remained unsolved for more than
twenty years. Yet, in 2004, the Louisville Metro Police
Department (“LMPD”) Cold Case Unit reopened
Armstrong’s case. Through the use of DNA profiling,
Detectives sought to eliminate suspects. LMPD officers
were able to obtain Appellant’s DNA from a cigar he
discarded during a traffic stop. Appellant’s DNA profile
matched the DNA profile found in Armstrong’s panties.
On December 27, 2007, a Jefferson County Grand Jury
returned an indictment charging Appellant with rape
in the first degree and murder. During the trial, DNA
evidence and evidence of Appellant’s other murder
convictions were introduced to the jury. On July 28,
2014, Appellant was found guilty of both charges.
Appellant refused to participate during the sentencing
stage of his trial. The jury ultimately found the
existence of aggravating circumstances and
recommended a sentence of death for Armstrong’s
murder plus twenty years for her rape. The trial court
sentenced Appellant in conformity with the jury’s
recommendation. Appellant now appeals his conviction
and sentence as a matter of right pursuant to
§ 110(2)(b) of the Kentucky Constitution and Kentucky
Revised Statute (“KRS”) 532.075.

App. 18
On appeal, Appellant has raised thirty-three claims of
error. In reviewing these claims, the Court is
statutorily required to “consider the punishment as
well as any errors enumerated by way of appeal.” KRS
532.075(2). Moreover, since we are dealing with the
imposition of death, this appeal is “subject to [a] more
expansive and searching review than ordinary criminal
cases.” St. Clair v. Commonwealth, 455 S.W.3d 869,
880 (Ky. 2015) (citing Meece v. Commonwealth, 348
S.W.3d 627, 645 (Ky. 2011)). For the sake of brevity, we
will approach all claims as properly preserved unless
otherwise specified herein. To the extent claims were
not preserved for our examination, we will utilize the
following standard of review:
[W]e begin by inquiring: (1) whether there is a
reasonable justification or explanation for
defense counsel’s failure to object, e.g., whether
the failure might have been a legitimate trial
tactic; [but] (2) if there is no [such] reasonable
explanation, [we then address] whether the
unpreserved error was prejudicial, i.e., whether
the circumstances in totality are persuasive
that, minus the error, the defendant may not
have been found guilty of a capital crime, or the
death penalty may not have been imposed.
Sanders v. Commonwealth, 801 S.W.2d 665, 668 (Ky.
1990).
KRE 404(b) Evidence
Appellant’s first and most compelling argument is that
the trial court committed reversible error when it
allowed the Commonwealth to admit other bad acts

App. 19
evidence of the Appellant as addressed by Kentucky
Rules of Evidence (“KRE”) 404(b). Prior to trial, the
Commonwealth filed notice that it intended to
introduce evidence of Appellant’s two 1987 murder
convictions. These convictions revealed that Appellant
pled guilty to murdering Deborah Miles and Yolanda
Sweeney.1 The Commonwealth suggested that the
Miles and Sweeney murders were similar enough to
Armstrong’s murder to demonstrate that Appellant
was her killer.
Miles was discovered dead in her bedroom a mere week
after Armstrong’s murder. She was naked and had
been shot in the left, back side of the head. Appellant
claimed that he had known Miles for several months
and that she sold drugs on his behalf. Appellant also
claimed the two had a sexual relationship. Appellant
stated that he shot Miles while at her apartment
because she failed to repay him for drugs. Appellant
claimed that he did not sexually assault her before or
after her murder.
In regards to Sweeney, she was found dead behind a
backyard shed approximately four weeks after
Armstrong’s murder. Sweeney suffered from a fatal
gunshot wound to the left side of the back of her head.
Her pants were missing and her panties were pulled
down around her legs. Appellant stated that he met
1

On March 12, 1985, Appellant was sentenced to death for the
murders of Miles and Sweeney. The Court overturned his
convictions and death sentences in White v. Commonwealth, 725
S.W.2d 597, 598 (Ky. 1987) due to the Commonwealth’s use of
Appellant’s illegally obtained confessions. Upon remand, Appellant
pled guilty to the two murders and was sentenced to twenty-eight
years’ imprisonment.

App. 20
Sweeney shortly before her death at a nightclub. She
agreed to engage in sexual activity with him for $25.00.
Appellant claims the two walked to a secluded outside
area at which point Appellant provided Sweeney with
the money. Appellant admitted to shooting Sweeney
after she tried to run away with his money before
conducting the agreed upon sexual acts.
The Commonwealth argued that the facts of these two
convictions were similar enough to prove Appellant’s
identity as Armstrong’s murderer. Extensive pleadings
were filed from both parties and the trial court
conducted several hearings on the matter. Ultimately,
the trial court was persuaded by the Commonwealth’s
arguments and allowed the two prior convictions to be
introduced to the jury for the purpose of establishing
Appellant’s identity through his modus operandi.
Before evaluating the trial court’s admission of
Appellant’s two murder convictions, we note that
reversal is not required unless the trial court abused its
discretion. Clark v. Commonwealth, 223 S.W.3d 90, 95
(Ky. 2007). Thusly, reversal is unwarranted absent a
finding that the trial court’s decision “was arbitrary,
unreasonable, unfair, or unsupported by sound legal
principles.” Commonwealth v. English, 993 S.W.2d 941,
945 (Ky. 1999).
KRE 404(b) prohibits the introduction of “[e]vidence of
other crimes, wrongs, or acts” used “to prove the
character of a person in order to show action in
conformity therewith.” This evidentiary rule seeks to
prevent the admission of evidence of a defendant’s
previous bad actions which “show a propensity or
predisposition to again commit the same or a similar

App. 21
act.” Southworth v. Commonwealth, 435 S.W.3d 32, 48
(Ky. 2014). However, such evidence may be admissible
to prove “motive, opportunity, intent, preparation,
plan, knowledge, identity, or absence of mistake or
accident.” KRE 404(b)(1). While “modus operandi” is
not specifically mentioned within the list of exceptions,
this Court has long held that evidence of prior bad acts
which are extraordinarily similar to the crimes charged
may be admitted to demonstrate a modus operandi for
the purposes of proving, inter alia, identity. Billings v.
Commonwealth, 843 S.W.2d 890, 893 (Ky. 1992).
In order for the modus operandi exception to render
prior bad acts admissible, “the facts surrounding the
prior misconduct must be so strikingly similar to the
charged offense as to create a reasonable probability
that (1) the acts were committed by the same person,
and/or (2) the acts were accompanied by the same mens
rea.” English, 993 S.W.2d at 945. Therefore, we must
compare the facts of Appellant’s prior murders to the
murder of Armstrong, keeping in mind that “clever
attorneys on each side can invariably muster long lists
of facts and inferences supporting both similarities and
differences between the prior bad acts and the present
allegations.” Commonwealth v. Buford, 197 S.W.3d 66,
71 (Ky. 2006).
Whether Appellant’s prior murder convictions qualify
for the modus operandi exception presents a
challenging task for the Court, requiring “a searching
analysis of the similarities and dissimilarities.” Clark,
223 S.W.3d at 97. Our review is even more difficult
considering that our jurisprudence on this issue has
evolved mostly through the lens of sexual abuse cases.

App. 22
These cases hold that a specific act of sexual deviance
may be unique enough to demonstrate that the
assailant’s crimes are “signature” in nature. See, e.g.,
Dickerson v. Commonwealth, 174 S.W.3d 451, 469 (Ky.
2005); English, 993 S.W.2d 941 (all victims were
relatives of wife and molestation occurred in the same
fashion); see also Anastasi v. Commonwealth, 754
S.W.2d 860 (Ky. 1988) (tickling and wrestling with
young boys while dressed in only underwear).
Outside the realm of sexual abuse, we have but few
cases. In Bowling v. Commonwealth, 942 S.W.2d 293,
301 (Ky. 1997), a capital murder case, this Court
allowed testimony from the survivor of a previously
attempted robbery, wherein Bowling was identified as
the assailant. The witness claimed that Bowling came
into his service station, attempted to rob the store, and
shot at him countless times. Id. at 301. The Court
upheld the admission of that testimony because there
was sufficient similarity between the crimes to
demonstrate that Bowling’s pattern of conduct was to
rob gas stations attended by one worker in the early
morning hours. Id.
In St. Clair, 455 S.W.3d 869, also a death penalty case,
this Court upheld the testimony of St. Clair’s
accomplice, during which he testified about the duo’s
prior kidnapping and robbery. Id. at 886. The
accomplice testified that Appellant held the prior
victim at gun point, handcuffed him, and stole his late
model pick-up truck, taking the victim along for the
ride. Id. These facts were similar to the crimes to which
St. Clair was charged. The Court held that the facts
were sufficient to pass muster under the modus

App. 23
operandi exception since in both kidnappings he used
the same gun and pair of handcuffs in order to steal a
similar type of truck. Id. at 887.
What we garner from our case law is that a
perpetrator’s modus operandi can be established by any
number of similarities between the previous criminal
acts and the crimes charged, e.g., the type of victims,
proximity of the time and location of the crimes, the
weapon or ammunition used, the method employed to
effectuate the crime, etc. However, we must analyze
similarities with caution, as the likeness of the crimes
may merely constitute a common characteristic or
element of the offense. The Court made this
clarification in Clark v. Commonwealth, wherein we
underscored that “the fundamental principle that
conduct that serves to satisfy the statutory elements of
an offense will not suffice to meet the modus operandi
exception.” 223 S.W.3d at 98. For that reason, “it is not
the commonality of the crimes but the commonality of
the facts constituting the crimes that demonstrates a
modus operandi.” Dickerson, 174 S.W.3d at 469.
With these cases in mind, we begin with the factual
commonalities of the Miles and Sweeney murders with
that of Armstrong’s. The most noticeable similarity is
that all three victims were African-American women in
their early twenties, ranging from twenty-one years to
twenty-three years old. Another substantial likeness
concerns the date and location of all three murders.
Appellant murdered Sweeney and Miles within
approximately four weeks of murdering Armstrong.
The Sweeney and Miles murders also occurred within
blocks from Appellant’s residence and the location of

App. 24
where Armstrong’s body was found. We also place
considerable weight on the resemblances between the
victims’ manners of death. For example, the mode of
execution which Miles and Sweeney both suffered was
similar to Armstrong’s fatal wounds. Specifically, all
three victims were shot in the head in the area behind
the left ear. Also, and of high importance, the bullets
used to kill all three victims were .38 caliber bullets.
Moreover, all three victims were each discovered in
various stages of undress, which suggested they were
victims of a sexual assault. The three victims’ vaginal
areas were likewise all exposed upon the discovery of
their bodies.
Turning to the factual differences of the crimes, Miles
was killed inside her apartment, while Armstrong and
Sweeney were killed outside. In addition, Appellant
maintained different levels of association with the
three victims. Appellant claims to have known Miles
for a few months prior to her death, while both
Sweeney and Armstrong appear to have been new
acquaintances. The crimes also occurred at different
times of the day. Armstrong was murdered in mid to
late morning, while Miles and Sweeney were killed at
night. Another difference is that the gun that killed
Armstrong was not used to kill Miles or Sweeney, even
though it was the same caliber weapon. Moreover,
unlike the other two victims, Armstrong was shot
twice, as the first shot did not cause immediate death.
Appellant also points out that there was no forensic
evidence that Appellant had sexual contact with either
Miles or Sweeney, nor was he convicted of sexually
assaulting either victim. We should note that

App. 25
Sweeney’s body was too badly decomposed for a rape
kit to be performed.
Less persuasive differences are also present. Appellant
emphasizes that the victims were discovered in
different states of undress. Armstrong was fully
dressed with her underwear pulled down around her
legs, while Sweeney was found without pants, also with
her underwear pulled down around her legs. Miles,
however, was discovered completely nude. The Court is
hesitant to place great weight on the differences in the
victims’ states of undress because it likely
demonstrates convenience or opportuneness rather
than a planned action. See Anastasi, 754 S.W.2d at 862
(allowing modus operandi evidence of prior acts of
sexual abuse where all victims, except one, were
clothed only in underwear).
While the above-mentioned differences are inversely
proportional to the degree of similarity needed to meet
the modus operandi threshold, our jurisprudence does
not require that the circumstances be
indistinguishable. See, e.g., Dickerson, 174 S.W.3d at
469 (quoting Rearick v. Commonwealth, 858 S.W.2d
185, 187 (Ky. 1993)) (“[I]t is not required that the facts
be identical in all respects . . .”) Nonetheless, this Court
is faced with an arduous question: at what point do the
dissimilarities become sufficient enough to render the
crimes unalike?
We find the case of Newcomb v. Commonwealth, 410
S.W.3d 63 (Ky. 2013) most instructive. In that case,
Newcomb raped two women within a ten-day span. Id.
at 70. Newcomb raped the first woman, a coworker, in
her car after she offered to drive him home. Id. The

App. 26
second woman was raped in her home after Newcomb
unexpectedly stopped by to visit. Id. at 71. Newcomb
was tried for both crimes together. Id. at 72. This Court
upheld the joinder of both offenses, stating that
evidence of either rape would be admissible in both
trials if severed. Id. The Court explained that both
rapes were similar enough to establish Newcomb’s
modus operandi. Id. at 74. The similarities relied upon
included the victims’ ages and race, in addition to the
temporal proximities of the crimes. Id. The nature of
force used was also similar in both rapes, as
Appellant’s attacks began with forcible kissing followed
by a statement like, “You know you like me,” or, “You
know you want me.” Id. at 75.
Similar to the case before us, there were numerous
differences in the two rapes. For example, the locations
of the crimes were not consistent. Newcomb raped one
victim in a car after asking for a ride home, while he
raped the other victim inside her home when visiting.
Id. at 76. The levels of acquaintanceships were also
different. Newcomb knew one victim from work and
had previously shared a kiss with her, while he had
only minimal interaction with the other victim. Id. In
addition, and again similar to the case before us, the
crimes were not identically followed through. Newcomb
held one victim by the hair, but used minimal force
with the other victim. Id.; see also English, 993 S.W.2d
at 942 (English utilized the covering of a blanket to
hide the commission of sexual acts with some of his
victims, but not with others).
It is apparent to this Court that the similarities that
satisfied the modus operandi threshold in Newcomb are

App. 27
no more significant, nor are the differences any less
substantial, than those of the facts presently before us.
Newcomb illustrates that despite factual differences,
the crimes’ similarities, even if minimal, may be
distinctive enough to evidence the perpetrator’s
identity. We believe those distinguishing similarities
exist in the case before us. Indeed, Appellant engaged
in a pattern of attacking African-American women in
their early twenties within a close proximity during
early June through early July of 1983. The most
persuasive facts being that these three women were of
the same age, race, and suffered a gunshot wound from
a .38 caliber bullet to the mid-back, left side of the head
while their vaginas were uncovered from the removal
of clothing. In our view, the commonality of the facts
between the Miles and Sweeney murders and the
Armstrong murder presents a substantial degree of
similarity. Therefore, we find that the trial court did
not abuse its discretion in finding that the crimes’
similarities were sufficient enough to demonstrate
Appellant’s identity through his modus operandi.
Having determined that the Miles and Sweeney
murders qualified as modus operandi evidence, we
must still ensure that such evidence was more
probative than prejudicial. KRE 403; Lanham v.
Commonwealth, 171 S.W.3d 14, 31 (Ky. 2005). The trial
court ruled that although the evidence was “extremely
prejudicial,” the prejudice was outweighed by its high
probative worth. We agree.
In conducting a KRE 403 balancing test with respect to
modus operandi evidence, “a variety of matters must be
considered, including the strength of the evidence as to

App. 28
the commission of the other crime, the similarities
between the crimes, the interval of time that has
elapsed between the crimes, the need for the evidence,
the efficacy of alternative proof, and the degree to
which the evidence probably will rouse the jury to
overmastering hostility.” Newcomb, 410 S.W.3d at 77
(quoting McCormick on Evidence, Ch. 17 § 190).
Accordingly, we begin our analysis by acknowledging
that the strength of the Commonwealth’s modus
operandi evidence is unquestionably strong. The
following observation is of great importance to this
Court. Unlike other cases in which we have found the
existence of modus operandi, the comparative offenses
in the case before us were not merely alleged, rather
Appellant pled guilty to murdering both Miles and
Sweeney. See Newcomb, 410 S.W.3d at 70-72
(Newcomb was indicted for the rapes, but had not yet
been convicted); English, 993 S.W.2d at 942-43 (other
prior acts of sexual abuse were only alleged by the
witnesses). In addition, and as we have already
discussed, the similarities of the murders are
substantial. The close proximity in time and location
between each murder further heightens the evidence’s
probativeness.
In regards to the need for evidence and the efficacy of
alternative proof, we find these considerations also
weigh in favor of admission. The Commonwealth’s only
method of proving Appellant’s identity as the
perpetrator was through the use of DNA evidence.
While the DNA evidence certainly proved that
Appellant had ejaculated on Armstrong, he argued that
he had consensual sex with her perhaps days before

App. 29
her death. Since Appellant provided the jury with a
plausible explanation for the presence of his semen,
evidence of his modus operandi was highly probative in
proving his identity. See Bowling, 942 S.W.2d at 301
(evidence of other crimes passed KRE 403 balancing
test wherein the evidence rebutted a claimed defense
and identification of the defendant as the assailant was
at issue).
In concluding our analysis on this issue, we
acknowledge that Appellant undoubtedly suffered
prejudice from the introduction of his two prior murder
convictions. However, we believe the trial court actively
managed the jury’s understanding of the evidence so as
to prevent them from developing “overmastering
hostility.” In an effort to dissuade prejudice, the trial
court admonished the jury about the proper use of the
404(b) evidence after the parties’ opening statements.
See Johnson v. Commonwealth, 105 S.W.3d 430, 441
(Ky. 2003) (juries are presumed to follow admonitions).
The trial court explicitly explained to the jury that the
evidence was only to be considered as evidence of
modus operandi and identity. Furthermore, the trial
court instructed the jury that the Commonwealth still
had to prove each element of the crimes charged
beyond a reasonable doubt and that Appellant’s prior
murder convictions could not be used to establish
action in conformity therewith. The trial court provided
the jury with a similar instruction just prior to the
guilt-phase deliberations. In light of the trial court’s
actions, in conjunction with the high probative worth of
the evidence, we find that the trial court did not abuse
its discretion in allowing evidence of Appellant’s prior
murder convictions.

App. 30
Jury Instructions
Appellant’s next assignment of error is that the trial
court’s failure to define the terms “modus operandi”
and “identity evidence” violated his due process rights.
Appellant concedes that this issue is unpreserved.
Appellant contends that “modus operandi” and
“identity evidence” are both terms that a juror is
unlikely to understand. Consequently, it cannot be
assumed that the jury followed the trial court’s
admonitions to only consider the prior murder
convictions for the purposes of demonstrating
Appellant’s identity through his modus operandi.
In Lawson v. Commonwealth, 218 S.W.2d 41, 42 (Ky.
1949), our predecessor Court stated that trial courts
must “instruct on the whole law of the case and to
include, when necessary or proper, definitions of
technical terms used.” In support of his argument,
Appellant cites Wright v. Commonwealth, 391 S.W.3d
743 (Ky. 2013), wherein this Court found that the trial
court’s failure to define “unmarried couple” within its
instructions constituted error. Id. at 748. However,
Wright, a domestic violence case, is distinguishable
from the case before us. In Wright, the statutory
definition of “unmarried couple” is distinctive from
what an average juror would understand as a couple
who is unmarried. See KRS 403.720 (an “unmarried
couple” constitutes two individuals who have a child
together and either live together or previously lived
together). That is not the case here. We can find no
evidence that the two terms go beyond the average
juror’s understanding. See Caretenders, Inc. v.
Commonwealth, 821 S.W.2d 83, 87 (Ky. 1991)

App. 31
(“knowingly” and “willfully” are not technical terms
requiring instructions). Furthermore, to the extent that
these terms needed clarification, we believe they were
sufficiently “fleshed out” during closing arguments.
Lumpkins ex rel. Lumpkins v. City of Louisville, 157
S.W.3d 601, 605 (Ky. 2005) (“The Kentucky practice of
‘bare bones’ instructions permits the instructions to be
‘fleshed out’ in closing argument.”).
DNA Suppression
Appellant next urges the Court to find reversible error
in the trial court’s refusal to suppress his DNA sample,
which he claims was improperly obtained during an
illegal traffic stop. In February of 2006, LMPD
Sergeant Aaron Crowell was tasked with covertly
obtaining Appellant’s DNA. Accordingly, Sergeant
Crowell and Detective Hibbs began surveilling
Appellant’s residence. While watching Appellant’s
residence, the two officers observed Appellant enter a
vehicle as a passenger. The vehicle subsequently left
the residence at an unlawful high rate of speed. The
officers then stopped the vehicle due to the speeding
violation. During the stop, Sergeant Crowell removed
Appellant from the vehicle and performed a pat down
to check for weaponry. Appellant placed his lit cigar
onto the back of the vehicle. After checking the
subjects’ driver’s licenses and running warrant checks,
officers permitted the driver and Appellant to leave. No
citation was issued. As the vehicle left the scene,
Appellant’s cigar fell to the ground and was collected.
Appellant filed a motion to suppress DNA evidence
recovered from the cigar based on the illegality of the

App. 32
traffic stop. The trial court denied Appellant’s motion
following evidentiary hearings.
In reviewing a trial court’s denial of a motion to
suppress, we ensure that the trial court’s factual
findings are not clearly erroneous, after which we
conduct de novo review of the trial court’s applicability
of the law to the facts. Adcock v. Commonwealth, 967
S.W.2d 6, 8 (Ky. 1998) (citing Ornelas v. United States,
517 U.S. 690, 697 (1996)). Appellant does not allege
that any factual findings are unsupported. As a result,
we turn to the trial court’s application of the law to the
facts.
The trial court relied entirely on Lloyd v.
Commonwealth, 324 S.W.3d 384 (Ky. 2010) in ruling
that the traffic stop was lawful. We can find no error in
the trial court’s reasoning. In Lloyd, this Court
explained that an officer may conduct a traffic stop as
long as he or she has probable cause to believe a traffic
violation has occurred, regardless of the officer’s
subjective motivation. Id. at 392 (citing Wilson v.
Commonwealth, 37 S.W.3d 745 (Ky. 2001)). The
Commonwealth provided sufficient proof that Sergeant
Crowell and Detective Hibbs observed the vehicle
speeding. Thusly, it is immaterial that Sergeant
Crowell desired to obtain Appellant’s DNA since
adequate probable cause existed.
On appeal, Appellant takes his argument further and
suggests that his removal from the car and subsequent
pat down was unlawful. The trial court did not address
these arguments. Nevertheless, we can quickly dispose
of Appellant’s contentions. Pursuant to Owens v.
Commonwealth, 291 S.W.3d 704 (Ky. 2009) an “officer

App. 33
has the authority to order a passenger to exit a vehicle
pending completion of a minor traffic stop.” Id. at 708
(citing Maryland v. Wilson, 519 U.S. 408, 414-15
(1997)). Furthermore, Sergeant Crowell was permitted
to conduct a pat down of Appellant. As his suppression
hearing testimony illustrated, Sergeant Crowell
maintained a reasonable and articulable suspicion that
Appellant was armed and dangerous. See Terry v. Ohio,
392 U.S. 1, 27 (1968). Specifically, Sergeant Crowell
testified that he was not only aware of Appellant’s
proclivity to carry a weapon, but that he previously
arrested Appellant for unlawful possession of a
handgun. See also Adkins v. Commonwealth, 96 S.W.3d
779, 787 (Ky. 2003) (“When an officer believes that he
is confronting a murder suspect, he has presumptive
reason to believe that he is dealing with an armed and
dangerous person.”). We have seen no evidence that
Sergeant Crowell’s quick pat down of Appellant
exceeded the scope of Terry, nor has Appellant
demonstrated that the traffic stop was prolonged to
effectuate the pat down.
Recusal
Appellant urges the Court to find error in Judge James
Shake’s refusal to disqualify himself as the presiding
trial judge. Appellant claims that Judge Shake, during
his tenure as an Assistant Jefferson County Public
Defender, represented him in four felony cases in 1981.
Appellant only provides the Court with information
concerning one of the four cases, criminal case
81-CR-669. In that case, which proceeded to a jury
trial, Appellant was charged with sodomy and rape.
The Court’s records indicate that Appellant was

App. 34
acquitted on the sodomy charge, but found guilty of the
lesser charge of sexual abuse.
On July 18, 2014, five days into the jury trial,
Appellant moved Judge Shake to recuse himself based
on his past representation of Appellant. Appellant
argued that prejudice would result if Judge Shake
continued presiding over the trial “due to the
uncertainty surrounding his knowledge of the [prior]
case and/or relevant information obtained during his
previous representation of [Appellant].”
Judge Shake conducted a hearing on the motion shortly
thereafter. On July 21, 2014, Judge Shake denied
Appellant’s motion on the grounds of timeliness. Judge
Shake, citing Alred v. Commonwealth, Judicial
Conduct Commission, 395 S.W.3d 417, 443 (Ky. 2012),
stated that it is incumbent upon which the party
moving for recusal to do so “immediately after
discovering the facts upon the disqualification
rests. . . .” Judge Shake made clear that on a number of
occasions throughout the proceedings, he had informed
the parties of his prior representation of Appellant.
Accordingly, Appellant should have filed his recusal
motion long before the trial began.
In Bussell v. Commonwealth, 882 S.W.2d 111 (Ky.
1994), this Court was faced with similar Circumstances
as that of the case before us. In Bussell, also a death
penalty case, the defendant filed a recusal motion
based on the trial judge’s representation of him on
murder charges some seventeen years prior. Id. at 112.
In affirming the trial court’s actions, this Court
reiterated that Bussell knew or should have known
about the prior representation. Id. at 113. Bussell’s

App. 35
failure to timely assert the issue waived his claim for
recusal. Id.
Appellant was made aware of Judge Shake’s prior
representation prior to trial. While we cannot pinpoint
the exact date such information was made known, we
do know that Judge Shake had presided over the case
for over six years as of the time of trial. During this
time, Appellant should have been made aware of the
prior representation, either through his own
recollection or through Judge Shake’s
acknowledgments. Consequently, we deem Appellant’s
claim for recusal waived due to the untimeliness of his
motion.
Notwithstanding Appellant’s waiver, we must still
address whether Judge Shake was mandated by
statute to disqualify himself. See Alred, 395 S.W.3d at
443 (citing Johnson v. Commonwealth, 231 S.W.3d 800,
809 (Ky. App. 2007)). There are three separate
statutory grounds for recusal which Appellant
advances. KRS 26A.015 requires, in pertinent part,
that Judge Shake recuse himself if he has (1) “personal
knowledge of disputed evidentiary facts concerning the
proceeding”; (2) “served as a lawyer or rendered a legal
opinion in the matter in controversy”; or (3) “has
knowledge of any other circumstances in which his
impartiality might reasonably be questioned.”
This Court does not believe any grounds for mandatory
recusal existed. In regards to the first basis for
disqualification, we disagree with Appellant’s
argument that his 1981 conviction had some type of
evidentiary value to the existence of his modus
operandi. Not only was his 1981 conviction not

App. 36
introduced during the guilt phase, but Appellant fails
to explain how Judge Shake’s purported knowledge of
that case renders the murders of Sweeney and Miles
more similar to the murder of Armstrong. In regards to
the second statutory ground for recusal, we find
Appellant’s argument unpersuasive. While it is true
that Judge Shake previously served as Appellant’s
attorney, he did so in an unrelated case over
thirty-three years prior. That particular conviction
plainly does not constitute the same “matter in
controversy.” See Bussell, 882 S.W.2d at 112. Lastly, we
find difficulty in reasonably questioning Judge Shake’s
impartiality. Judge Shake was candid about his
recollections and explained that he had no memory of
Appellant’s cases or having any conversations
concerning those cases. We will not assume bias based
solely on the fact that Judge Shake represented
Appellant more than thirty-three years prior to his
trial. Id. (holding that judge’s prior representation of
defendant in a murder case did not render him biased).
For these reasons, we find no error in Judge Shake’s
refusal to disqualify himself from presiding over
Appellant’s trial.
Chain of Custody
Appellant also requests that we grant him a new trial
on the grounds that the trial court improperly admitted
unreliable evidence. The evidence Appellant complains
of is Armstrong’s rape kit, underwear cuttings, and his
cigar and buccal swab. Appellant contends that the
Commonwealth failed to provide a sufficient foundation
for the aforementioned articles due to numerous breaks
in the respective items’ chains of custody.

App. 37
The admission of physical evidence requires “a finding
that the matter in question is what its proponent
claims.” KRE 901(a). Said differently, a proper
foundation demonstrates that the proffered evidence is
the same evidence initially recovered and has not been
materially changed. See Beason v. Commonwealth, 548
S.W.2d 835, 837 (Ky. 1977). In regards to fungible
evidence, such as DNA, the item’s chain of custody
provides the necessary foundation for admission. See
Thomas v. Commonwealth, 153 S.W.3d 772, 779 (Ky.
2004). However, the Court has repeatedly approached
admission of such evidence in a liberal fashion,
concluding that an unbroken chain of custody is not
needed. E.g., Thomas, 153 S.W.3d at 781. As such,
breaks in the chain of custody go to the weight of the
evidence, rather than its admissibility. McKinney v.
Commonwealth, 60 S.W.3d 499, 511 (Ky. 2001).
In reviewing the trial court’s ruling, we look for an
abuse of discretion. Thomas, 153 S.W.3d at 781 (citing
United States v. Jackson, 649 F.2d 967, 973 (3d Cir.
1981)). Our focus is on whether a foundation was
sufficiently laid so that there is a reasonable
probability that the proffered evidence was not altered
in any material respect. Id. In making this
determination, we look to “the circumstances
surrounding the preservation of the evidence and the
likelihood of tampering by intermeddlers.” Thomas, 153
S.W.3d 782 (citing Pendland v. Commonwealth, 463
S.W.2d 130, 133 (1971)).
Cuttings from Armstrong’s Panties
Appellant focuses the majority of his argument on the
DNA retrieved from the cuttings of Armstrong’s

App. 38
panties. Confusion abounds due to several cuttings
being taken at two different times and the
Commonwealth’s inability to specify which path a
particular cutting took. To simplify our analysis, we
can place the cuttings into two groups originating from
LMPD Detective Charles Griffin’s collection of the
panties from Armstrong’s autopsy on June 4, 1983.
Nine days later, he delivered the panties to a Kentucky
State Police (“KSP”) laboratory analyst Morris Durbin,
who took cuttings from the areas testing positive for
seminal fluids. This is the first group of cuttings. The
cuttings were then stored in a KSP freezer where they
remained until July of 2006. At that time, some of the
cuttings were sent to a different KSP lab. The
laboratory technician personally returned the cuttings
to LMPD on April 25, 2007, after which they were
stored in the LMPD property room. A sufficient chain
of custody is patently clear for this first group of
cuttings.
The second group of cuttings occurred in 2004, when
LMPD was investigating another suspect in
Armstrong’s murder. At that time, the remnants of the
intact panties were transported to the KSP laboratory.
This is where the second group of cuttings occurred.
These cuttings were returned to LMPD and stored in
the property room that same year. The chain of custody
for the second group of cuttings has one missing link.
After Durbin made the initial selection of cuttings in
1983, there is no direct testimony demonstrating how
the remnants of the intact panties made it back to the
LMPD property room before being stored until 2004.
Nevertheless, discovery indicates that the KSP lab
released the panties to LMPD Officer “J. Trusty” on

App. 39
August 10, 1983, the same day they were returned to
the LMPD property room. This minimal gap in the
chain of custody for the second group of panty cuttings
does not render it unreliable. See Thomas, 153 S.W.3d
at 782. (“All possibility of tampering does not have to
be negated. It is sufficient that the actions taken to
preserve the integrity of the evidence are reasonable
under the circumstances.”).
Since there is only one of two paths the panty cuttings
could have taken, and both paths demonstrated intact
chains of custody, we believe the Commonwealth
provided a sufficient foundation demonstrating the
reliability of the DNA evidence. It is inconsequential
for the purposes of admission which path a particular
cutting took. Regardless of whether a particular sample
was part of the 1983 or 2004 cuttings, there is little
doubt that the “proffered evidence was the same
evidence actually involved in the event in question and
that it remain[ed] materially unchanged.” Thomas,
S.W.3d at 779. Thusly, the Commonwealth adequately
authenticated the evidence. The fact that the
Commonwealth was unable to differentiate whether
the cuttings were from the first or second batch of
cuttings goes to the weight of the evidence.
Rape Kit
Dr. McCloud collected Armstrong’s rape kit, after
which it was transferred to Detective Griffin during her
autopsy. It is unclear if it was Detective Griffin or
another officer who placed the kit in the LMPD
property room. Nine days later, Detective Griffin
transported the kit to a KSP laboratory. The
Commonwealth could not pinpoint who transported the

App. 40
kit back to the LMPD property room where it remained
until June of 2004. At that time, the kit was once again
transported to the KSP laboratory by an evidence
technician where it exchanged hands with several
identified analysts and technicians and returned to the
LMPD property room. A similar exchange took place in
2007, where the kit was transported to a KSP
laboratory by an identified evidence technician and was
later returned to the LMPD property room. There was
no testimony regarding who handled the kit, if anyone,
while at the KSP laboratory.
Although there are several breaks in the rape kit’s
custodial chain, we do not believe these disruptions
render the evidence unreliable. The deficiencies in
custody are apparently due to careless record keeping
in the form of failure to specify who transported the
item, rather than actions that would have altered or
possibly contaminated the contents of the rape kit. In
Rabovsky v. Commonwealth, 973 S.W.2d 6, 8 (Ky.
1998), the Court stated that “it is unnecessary to
establish a perfect chain of custody or to eliminate all
possibility of tampering or misidentification, so long as
there is persuasive evidence that ‘the reasonable
probability is that the evidence has not been altered in
any material respect.” ’ (quoting United States v.
Cardenas, 864 F.2d 1528, 1532 (10th Cir. 1989)). As
such, the trial court did not err in admitting the
evidence, as there was minimal chance that the
contents of the rape kit were altered. Once again, we
underscore that breaks in the chain of custody go to the
weight of the evidence, rather than its admissibility.
McKinney, 60 S.W.3d at 511.

App. 41
Appellant also claims that evidence of the rape kit’s
chain of custody was insufficient due to Detective
Griffin and Dr. McCloud, who were both deceased at
the time of trial, being unable to testify. Yet, we find
that Medical Examiner Dr. Tracey Corey’s and LMPD
Detective Joel Maupin’s testimonies adequately
perfected the missing links in the evidence’s chain of
custody. Dr. Corey testified that Dr. McCloud collected
the rape kit during Armstrong’s autopsy. Dr. Corey was
not present during the autopsy, but confirmed the
collection based on the autopsy report. See Kirk v.
Commonwealth, 6 S.W.3d 823, 828 (Ky. 1999)
(coroner’s testimony elicited from the autopsy report
authored by deceased pathologist was authenticated
and admissible). Likewise, Detective Maupin testified
that he witnessed Detective Griffin order the rape kit
and take custody of the collected kit during the
autopsy. Detective Maupin was also able to identify the
rape kit as the one collected by virtue of Detective
Griffin’s signature and date on the rape kit packaging.
Thusly, we find no error.
Buccal Swab and Cigar
As mentioned, Appellant also submits that the
Commonwealth failed to establish the chain of custody
for his cigar butt and buccal swab. We will not plunge
into a lengthy discussion concerning the custodial
history of these items. Instead, we can surmise that
Appellant’s most persuasive argument is predicated on
unidentified individuals who accepted and released the
evidence from the LMPD property room. As our
analysis has already stated, minor custodial breaches
do not automatically render the evidence unreliable.

App. 42
See Thomas, 153 S.W.3d at 781. Despite the negligible
gaps in custody, the Commonwealth reasonably
demonstrated the identity and the integrity of the
buccal swab and cigar. Therefore, the trial court did not
abuse its discretion by admitting them into evidence.
Prosecutorial Misconduct
Appellant alleges numerous instances of prosecutorial
misconduct during both the guilt and penalty phase
closing arguments. In considering Appellant’s claims of
prosecutorial misconduct, we will only reverse if the
misconduct is “so serious as to render the entire trial
fundamentally unfair.” Stopher v. Commonwealth, 57
S.W.3d 787, 805 (2001). We must emphasize that the
trial court was required to give the Commonwealth
wide latitude during its closing arguments. Bowling v.
Commonwealth, 873 S.W.2d 175, 178 (Ky. 1993). In
addition, the Commonwealth was entitled to draw
reasonable inferences from the evidence and explain
why those inferences support a finding of guilt.
Commonwealth v. Mitchell, 165 S.W.3d 129, 131-32
(Ky. 2005).
Guilt Phase
The first instance of misconduct Appellant complains
of occurred when the Commonwealth stated the
following during closing arguments: “Let’s cut to the
chase. You had to hear a day’s worth of evidence to
know what everybody already knew. It was Larry
White’s DNA on Ms. Armstrong’s vagina, her anus, her
panties and the back of her pants.” Appellant
immediately objected, claiming that the
Commonwealth was mischaracterizing the evidence.

App. 43
The trial court overruled Appellant’s objection, stating
that the jury can reconcile the statements with the
evidence presented.
Appellant is correct that his DNA was not specifically
found on Armstrong’s vagina, anus, or pants. While
semen was found in those areas, analysts were unable
to obtain a DNA profile. Nevertheless, Appellant’s DNA
matched the DNA profile found on Armstrong’s panties
with certainty—one in 160 trillion people. From this
evidence, the Commonwealth was entitled to draw
reasonable inferences and explain why those inferences
support a finding of guilt. Mitchell, 165 S.W.3d at
131-32. Since evidence indicated that Appellant had
sexual intercourse with Armstrong prior to her death,
in addition to his DNA being found in her panties, the
Commonwealth was permitted to make the reasonable
inference that such DNA was present in the semen
found on Armstrong’s vagina, anus, and pants. See
Tamme v. Commonwealth, 973 S.W.2d 13, 39 (Ky.
1998) (“The [prosecutor’s] alleged misstatements are
more accurately characterized as interpretations of the
evidence.”).
Appellant’s second allegation of prosecutorial
misconduct occurred when the Commonwealth
commented on Roger Ellington’s testimony. Appellant
believes the Commonwealth’s statements had the effect
of offering the prestige of the Commonwealth
Attorney’s Office to support the witness’ credibility.
Appellant’s brief provides a lengthy quote from the
Commonwealth which it argues amounted to improper
bolstering. After reviewing the Commonwealth’s
closing argument, we find no need to provide the quote,

App. 44
as there is no merit in Appellant’s contention. The
Commonwealth merely summarized Mr. Ellington’s
testimony in a way that was persuasive to their
position. Compare Armstrong v. Commonwealth, 517
S.W.2d 233, 236 (Ky. 1974) (improper bolstering
occurred when the prosecutor informed the jury that he
had known and worked with the witness before and the
witness was honest and conscientious).
Appellant’s third claim of misconduct also concerns Mr.
Ellington’s testimony. Mr. Ellington is the father of one
of Armstrong’s children. The defense advanced a theory
that Mr. Ellington was Armstrong’s killer. In response,
the Commonwealth provided the jury with the
following closing argument statements: “[Ellington],
being accused, having a Fifth Amendment right to
remain silent, [ ] came and sat right here. [Ellington]
chose to testify. He took an oath from the judge and he
answered the questions. Are those the actions of a
killer?” Appellant argues that this statement amounted
to an improper comment on Appellant’s failure to
testify. We disagree.
In Ragland v. Commonwealth, 191 S.W.3d 569, 589
(Ky. 2006), the Court explained that “a defendant’s
constitutional privilege against compulsory
self-incrimination [is violated] only when it was
manifestly intended to be, or was of such character that
the jury would necessarily take it to be, a comment
upon the defendant’s failure to testify.” When placed in
the context of the defense’s theories, we believe the
Commonwealth was appropriately responding to
Appellant’s allegation that Ellington was Armstrong’s
killer. Such a comment does not constitute a comment

App. 45
on Appellant’s failure to testify. See Bowling, 873
S.W.2d at 178 (finding that prosecutor’s closing
argument statement that “We can’t tell you what it is
because only the man who pulled the trigger knows”
did not amount to a comment on defendant’s refusal to
testify). As we have explained, “[n]ot every comment
that refers or alludes to a non-testifying defendant is
an impermissible comment on his failure to testify “
Ragland, 191 S.W.3d at 589 (quoting Ex parte Loggins,
771 So.2d 1093, 1101 (Ala. 2000)).
Appellant also alleges that the Commonwealth
improperly shifted the burden of proof when it
reminded the jury that Appellant failed to provide
proof that he and Armstrong had a relationship prior to
her, murder. This Court has long held that a prosecutor
“may comment on evidence, and may comment as to
the falsity of a defense position.” Slaughter v.
Commonwealth, 744 S.W.2d 407, 412 (Ky. 1987). The
complained of statement was clearly made to challenge
the defense’s theory that Appellant’s DNA was present
in Armstrong’s underwear because the two had
consensual sex preceding her death. The
Commonwealth’s remarks that there was no evidence
that such an encounter took place was well within the
bounds of closing arguments. We find no error.
Sentencing Phase
Appellant urges the Court to find that the
Commonwealth committed flagrant prosecutorial
misconduct when it stated that Appellant’s murders of
Armstrong, Miles, and Sweeney amounted to
“genocide.”

App. 46
The Commonwealth concedes that the prosecutor’s use
of the term “genocide” was improper. We agree and
condemn the Commonwealth’s use of such unnecessary
and disparaging comments. However, this Court does
not believe the remark was severe enough to render the
trial fundamentally unfair. While the Commonwealth’s
remark was obviously deliberate and undoubtedly
produced some prejudice, the remark was isolated,
being used only once during the closing argument. See
Mayo v. Commonwealth, 322 S.W.3d 41, 57 (2010).
Moreover, the evidence against Appellant, as discussed
supra, was relatively strong. When viewed in the
context of the entire trial, the Commonwealth’s brief
and minor remark did not undermine the essential
fairness of Appellant’s trial. See Murphy v.
Commonwealth, 509 S.W.3d 34, 53-54 (Ky. 2017)
(prosecutor’s reference to defendant as a “monster” did
not constitute reversible error); Dean v.
Commonwealth, 844 S.W.2d 417, 421 (Ky. 1992)
(Commonwealth calling the defendants “crazed
animals” did not require reversal).
Next Appellant argues that the Commonwealth
improperly urged the jury to sentence him to death for
his prior murders of Miles and Sweeney. We find no
need to relay the complained of statements. Instead, we
resolve Appellant’s contentions, by finding that the
Commonwealth properly commented on the proof
presented to the jury, including the fact that he had
murdered two other women. We do not believe the
Commonwealth’s references to the Miles and Sweeney
murders exceeded the bounds of permissible closing
statements.

App. 47
Appellant’s final claim of prosecutorial misconduct
concerns the Commonwealth’s statement to the jury
that they “never heard one word or witnessed one
action of any remorse from the defendant.”
Again, this comment was made during the sentencing
stage. This argument, while unacceptable during the
guilt stage, is germane to sentencing. The United
States Supreme Court weighed in on this issue when
reviewing this Court’s decision. White v. Woodall, 134
S.Ct. 1697, 1704 (2014). The nation’s highest court
ruled that the trial court was not required to give an
instruction of no inference of guilt by the defendant’s
refusal to testify during the penalty stage. The
Supreme Court agreed with the trial court’s conclusion
that “no case law [ ] precludes the jury from
considering the defendant’s lack of expression of
remorse . . . in sentencing.” See also Hunt v.
Commonwealth, 304 S.W.3d 15, 37 (Ky. 2009)
(prosecutor’s statement “[h]as anybody seen any
remorse from this defendant during the trial?” did not
constitute an impermissible comment on defendant’s
Fifth Amendment rights). There was no error here.
Victim Impact Evidence
Appellant next contends that he was denied a fair trial
due to the elicitation of what he believes was victim
impact evidence during the guilt phase of trial. This
argument is unpreserved and without merit. During
redirect examination of one of Armstrong’s children,
the Commonwealth inquired into the status of
Armstrong’s other children. The witness merely said
that one of his siblings was killed and the other had
committed suicide. The witness did not expound on

App. 48
their deaths, nor did he state that their deaths were
attributable to their mother’s murder. We find no error.
Directed Verdict
Appellant argues that the trial court erred in failing to
grant him a directed verdict of acquittal on the rape
and murder charges. We have sufficiently outlined the
sufficiency of the evidence in this opinion already to
refute this claim. We will not protract this opinion by
unnecessarily repeating it here. When viewing the
evidence in its entirety, it was not clearly unreasonable
for a jury to find Appellant guilty of the crimes
charged.
Statutory Aggravator
Appellant next urges the Court to vacate his sentence
of death on the grounds that the jury failed to find a
statutory aggravator. In order to impose the death
sentence upon a defendant, a jury must find, beyond a
reasonable doubt, the existence of at least one of the
statutory aggravators as listed in KRS 532.025(2)(a). In
the case before us, the jury was instructed on the
following aggravating circumstance:
In fixing a sentence for the defendant, Larry
Lamont White, for the offense of the murder of
Pamela Armstrong you shall consider the
following aggravating circumstance which you
may believe from the evidence beyond a
reasonable doubt to be true: (1) The defendant
committed the offense of murder while the
defendant was engaged in the commission of
rape in the first degree.

App. 49
Appellant takes issue with the jury’s response to this
question. The jury’s verdict form read as follows: “We
the jury, find beyond a reasonable doubt that the
following aggravating circumstances exists in the case
as to the murder of Pamela Armstrong.” Underneath
this aggravator, the jury foreman wrote the word
“Rape.” Appellant claims that the jury’s finding of
“rape” does not constitute a finding that the Appellant’s
murder of Armstrong was committed while he was
engaged in the commission of first-degree rape.
Appellant’s argument has merit to the extent that the
jury’s one word answer of “rape” does not specify
whether the jury believed Appellant committed
first-degree rape during the commission of Armstrong’s
murder. Yet, we may assume that the jury made the
proper finding of the statutory aggravator based on the
jury’s likely interpretation and understanding of the
verdict forms and instructions. See Wilson v.
Commonwealth, 836 S.W.2d 872, 892 (Ky. 1992),
overruled on other grounds by St Clair, 10 S.W.3d 482.
Indeed, our analysis centers on “what a ‘reasonable
juror’ would understand the charge to mean,” Id. at 892
(citing Frances v. Franklin, 471 U.S. 307 (1985)). Based
on the instructions and verdict form, the jury was given
the option of finding only one aggravator—murder
accompanied by first-degree rape, and was instructed
that it could not impose a death sentence unless the
aggravating circumstance was found: These
instructions are clear. In the Commonwealth, we
assume that juries follow instructions. Johnson v.
Commonwealth, 105 S.W.3d 430, 436 (Ky. 2003).
Accordingly, since the jury wrote the word “rape” on
the verdict form which found the existence of the

App. 50
aggravator, in conjunction with the jury’s subsequent
imposition of death, we find no error.
Invalid Indictment
Appellant contends that his conviction and sentence is
void as a matter of law because the trial court lacked
jurisdiction. Appellant’s claim relies entirely on the fact
his indictment was not signed by a circuit court judge
or circuit court clerk. RCr 6.06 requires only that
indictments be signed by the Grand Jury foreperson
and the Commonwealth’s attorney. Appellant fails to
direct the Court to any statutory or precedential
authority indicating that the lack of a circuit court
judge or clerk’s signatures renders the indictment
invalid. See Smith v. Commonwealth, 288 S.W. 1059
(Ky. 1926) (holding that an indictment was valid
despite the absence of the clerk’s signature).
Furthermore, RCr 6.06 prohibits any challenge to the
indictment on signatory grounds “made after a plea to
the merits has been filed or entered.” Appellant pled
“not guilty” to the crimes charged in January 2008, but
did not challenge the indictment until July of 2014. For
these reasons, Appellant’s argument is not only waived,
but lacks merit.
Jury Inquiry
Appellant maintains that the trial court violated his
constitutional rights by failing to conduct an adequate
inquiry regarding whether any jurors viewed an
inflammatory news article. The article at issue was
released at the beginning of the trial and labeled
Appellant as a “serial killer” who raped and murdered
two other women. Appellant moved for a mistrial,

App. 51
arguing that the jury had likely been exposed to the
news article. In response, the trial court informed the
jurors that a news article was released concerning the
case and then asked the jurors if they had followed his
previous admonition “not to read anything or watch
anything, [or] research anything.” The jurors indicated
that they had followed the trial court’s admonition.
Appellant made no further objections about the matter
and did not ask for additional admonitions. We believe
this unpreserved alleged error is without merit. See
Tamme, 973 S.W.2d at 26 (“[h]aving properly
admonished the jury not to read any newspaper
articles about the trial, the trial judge was not required
to inquire of them whether they had violated his
admonition.”).
Voir Dire Limitation
Appellant submits to the Court that his trial was
fundamentally unfair due to the trial court’s limitation
of juror inquiries during jury selection. More
specifically, Appellant sought to question the individual
jurors about their capacities to consider Appellant’s
prior convictions for the limited purpose of identity and
modus operandi. The trial court narrowed the potential
questioning concerning the KRE 404(b) evidence to the
commonly utilized inquiries regarding whether the
jurors could follow the law and instructions.
Trial courts are granted broad discretion and wide
latitude in their control of the voir dire examination.
Rogers v. Commonwealth, 315 S.W.3d 303, 306 (Ky.
2010). Our review of the trial court’s limitations is
whether denial of a particular question implicates
fundamental fairness. Lawson v. Commonwealth, 53

App. 52
S.W.3d 534, 540 (Ky. 2001). In Ward v. Commonwealth,
695 S.W.2d 404 (Ky. 1985), defense counsel attempted
to inquire whether potential jurors, when assessing a
witness’ credibility, could consider the fact that the
witness made a deal with the Commonwealth in
exchange for his. testimony. Id. The Court upheld the
trial court’s limitations on such inquiries because such
questions were “to have jurors indicate in advance or
commit themselves to certain ideas and views upon
final submission of the case “ Id. at 407; see Woodall v.
Commonwealth, 63 S.W.3d 104 (Ky. 2001) (affirming
the trial court’s limitation of defense counsel’s
questions concerning whether the jurors could consider
a low I.Q. score as mitigating evidence). In light of
Ward, we do not believe the trial court exceeded its
broad discretion. Appellant’s questioning would have
likely exposed juror views concerning his past murders
and possibly committed the jurors to those
assessments. As mentioned, less harmful questioning
was utilized and allowed Appellant to ascertain
whether the jurors could follow the trial court’s
instruction to consider the evidence for the correct
purposes.
Venirepersons Struck For Cause
Appellant next claims that the trial court abused its
discretion in striking Juror 1159266 and Juror 1159422
for cause on the grounds that they could not give due
consideration to the potential sentence of death. This
Court abides by the principles set forth in Uttecht v.
Brown, 551 U.S. 1, 9 (2007), which held that “a juror
who is substantially impaired in his or her ability to
impose the death penalty under the state-law

App. 53
framework can be excused for cause, but if the juror is
not substantially impaired, removal for cause is
impermissible.” In Brown v. Commonwealth, 313 S.W.
3d 577, 599 (Ky. 2010), this Court discussed the great
difficulty in determining whether a potential juror’s
reservations about the death penalty would “prevent or
substantially impair the performance of [their] duties
as juror[s] in accordance with [their] instructions and
[their] oath.” (quoting Wainwright v. Witt, 469 U.S.
412, 424 (1985)). For this reason, we grant the trial
court’s wide-ranging discretion, as “this distinction will
often be anything but clear and will hinge to a large
extent on the trial court’s estimate of the potential
juror’s demeanor.” Brown, 313 S.W 3d at 599.
With regards to Juror 1159266, voir dire questioning
revealed his opposition to the death penalty.
Unfortunately for the trial court, his opposition was
anything but consistent. When initially asked if he
could consider the death penalty, Juror 1159266
responded in the negative. The potential juror
subsequently explained that he did not believe in the
death penalty, going so far as to say, “I just don’t think
that being put to death is the proper punishment ever.”
When Appellant began asking the potential juror
questions, he seemed to let up on his previously stated
convictions and expressed that he could consider all
available penalties. However, further questioning by
the Commonwealth once again uncovered his bias
against the death penalty and that it was never the
proper punishment.
Juror 1159422 also expressed contempt for the death
penalty. When asked if she could consider the entire

App. 54
range of penalties, the potential juror stated, “I’d prefer
not to . . . [and] I wouldn’t want to[,] several of them
maybe, but not the death penalty.” Juror 1159422 went
on to explain that she was capable of considering
“anything,” but clarified that the death penalty is not
something she wanted to entertain. She also explained
that she was Catholic and didn’t “particularly like the
death penalty.” Appellant provided the potential juror
with similar questioning regarding her ability to
consider the death penalty as a possible sentence. She
replied as follows: “I wouldn’t want to, no. I wouldn’t
want to, but could I? I guess anybody can do anything.”
When faced with conflicting and somewhat unclear
answers, such as those provided by Juror 1159266 and
Juror 1159422, we must look to the jurors’ responses as
a whole and ask if a reasonable person would conclude
that the juror was substantially impaired in the ability
to consider the death penalty. Brown, 313 S.W.3d at
601. In light of both jurors’ unequivocal objections to
the death penalty, in addition to their uncertainty and
hesitation in imposing a sentence of death, we cannot
conclude that the trial court abused its discretion. See
id. (upholding trial court’s for-cause strike of juror who
said “I don’t know” virtually every time he was asked
if he could impose the death penalty).
Jury Sequester
Appellant complains that he was denied a fair trial due
to the trial court’s failure to sequester the jury on the
weekend between the guilt and sentencing phases. We
find no error. RCr 9.66 states that “[w]hether the jurors
in any case shall be sequestered shall be within the
discretion of the court.” Accordingly, in St Clair v.

App. 55
Commonwealth, 140 S.W.3d 510, 558 (Ky. 2004), this
Court made clear that it is not an abuse of discretion to
refuse “to sequester a jury between the guilt and
sentencing phases of a bifurcated trial “ (citing Wilson
v. Commonwealth, 836 S.W.2d 872, 888 (Ky. 1992),
overturned in part by St. Clair v. Roark, 10 S.W.3d 482
(Ky. 1999)).
Mitigating Evidence
Appellant contends that the trial committed error when
it denied him the opportunity to inform the jury that he
had previously pled guilty to murdering Sweeney and
Miles. However, a careful review of the record fails to
demonstrate such a ruling. Moreover, we have been
unable to locate Appellant’s specific request for relief or
request that the trial court make a ruling on the
matter. See, e.g., Brown v. Commonwealth, 890 S.W.2d
286, 290 (Ky. 1994).
Missing Evidence Instruction
The next issue for our review concerns the trial court’s
denial of Appellant’s request for a missing evidence
instruction. The evidence at issue is a printout of food
stamp recipients and a bus schedule. The bus schedule
was found under Armstrong’s body and collected by law
enforcement. At the time of trial, the bus schedule was
not introduced into evidence and was never located. In
regards to the food stamp printout, Armstrong was
stated to have left her apartment to obtain food stamps
on the morning of her murder, but the food stamps
were missing on her person when her body was
discovered. In an attempt to confirm her whereabouts
that morning, LMPD Detective Les Wilson testified

App. 56
that he obtained a printout from the food stamp office
showing Armstrong as a recipient. After Detective
Wilson’s testimony, the parties realized the printout
was missing. Both parties stipulated this fact and the
trial court advised the jury that the food stamp
printout was not within the case file. Appellant
requested an instruction on the missing evidence. The
trial court denied the request on the grounds that
Appellant failed to demonstrate that the evidence was
intentionally destroyed by law enforcement.
A missing evidence instruction is required only when a
“Due Process violation [is] attributable to the loss or
destruction of exculpatory evidence.” Estep v.
Commonwealth, 64 S.W.3d 805, 810 (Ky. 2002). In
order for Appellant to be entitled to a missing evidence
instruction, he must establish that (1) the failure to
preserve the missing evidence was intentional and
(2) it was apparent to law enforcement that the
evidence was potentially exculpatory in nature. Id.
Appellant has failed to demonstrate either bad faith on
the part of law enforcement or that the missing
evidence would have had the potential to exonerate
him as the assailant. See Roark v. Commonwealth, 90
S.W.3d 24 (Ky. 2002) (missing composite sketch of
perpetrator and lineup photographs did not require
missing evidence instruction because bad faith was not
shown and the evidence was not exculpatory). Thusly,
the trial court properly denied Appellant’s request for
a missing evidence instruction.
Alternative Perpetrator Evidence
Appellant also complains that the trial court erred in
failing to permit the introduction of evidence that

App. 57
Michael Board, the father of one of Armstrong’s
children, was her actual killer. More specifically,
Appellant sought to question a testifying detective
regarding a warrant taken out by Board against
Armstrong five years prior to her death, After the
Commonwealth objected, the trial court prohibited the
questioning on the grounds that Board being the
alternative perpetrator was unsupported and
speculative. Appellant preserved the detective’s
testimony by avowal.
When evaluating alternative perpetrator evidence, the
KRE 403 balancing test is the true threshold for
admission, as such evidence is almost always relevant.
Gray v. Commonwealth, 480 S.W.3d 253, 268 (Ky.
2016) (“The proponent of the theory must establish
something more than simple relevance or the threat of
confusion or deception can indeed substantially
outweigh the evidentiary value of the theory.”).
Probative worth is diminished if the “proffered
evidence [presents] speculative, farfetched theories
that may potentially confuse the issues or mislead the
jury.” Id.
The only proffered evidence indicating that Board was
the alternative perpetrator was the back and forth
warrants between the parties during what was
obviously a tumultuous relationship. However, the
most recent warrant as of the time of Armstrong’s
death originated five years prior. Taking into account
the five-year time lapse, we do not believe the evidence
established that Board had a motive to murder
Armstrong. Too much time had simply gone by for the
warrant to have any true probative worth. The

App. 58
proffered evidence also failed to demonstrate that
Board had the opportunity to commit, or that he was in
any way linked to, Armstrong’s murder. See Beaty v.
Commonwealth, 125 S.W.3d 196 (Ky. 2003). Appellant’s
theory was weak and presented itself as speculative
and farfetched. Consequently, we do not believe the
trial court’s ruling was an abuse of its discretion, nor
did it prevent Appellant from presenting a full defense.
Penalty Phase Exhibit
Appellant next requests a new sentencing trial based
on an unadmitted exhibit being placed with the jury
during deliberations. The Commonwealth utilized an
enlarged chart illustrating Appellant’s criminal history
during the sentencing phase of trial. Appellant did not
object to the introduction of his criminal history via the
testimony of the Commonwealth’s witness, nor the use
of the chart. The record reflects that the
Commonwealth failed to request for the chart to be
admitted into evidence. Yet, the jury was allowed to
view the chart during its deliberation in violation of
RCr 9.72. Nonetheless, the error was harmless as
Appellant’s criminal history, specifically the most
prejudicial convictions—his previous murder
convictions—had already been disclosed to the jury on
several occasions.
Intellectual Disability
Appellant urges the Court to reverse his death
sentence on the grounds that the trial court refused to
hold a hearing to explore the existence of an
intellectual disability. Once the jury returned a verdict
of guilt, Appellant motioned the trial court to remove

App. 59
the death penalty as a possible sentence based on
Appellant’s low IQ score and the case Hall v. Florida,—
U.S.—, 134 S.Ct. 1986 (2014). The trial court denied
Appellant’s motion, and declined his request for a
hearing on the matter.
The Eighth and Fourteenth Amendments to the United
States Constitution prohibit the execution of persons
with intellectual disability. Atkins v. Virginia, 536 U.S.
304, 321 (2002). The Commonwealth recognizes this
rule of law in KRS 532.140, which forbids the
imposition of death upon an “offender with a serious
intellectual disability.” In order for a defendant to meet
Kentucky’s statutory definition of “serious intellectual
disability,” and thus evade the death penalty, he or she
must meet the following criteria pursuant to KRS
532.135: (1) the defendant’s intellectual functioning
must be “significant[ly] subaverage”—defined by
statute as having an intelligence quotient of 70 or less;
and (2) the defendant must demonstrate substantial
deficits in adaptive behavior, which manifested during
the developmental period.
Procedurally, trial courts require a showing of an IQ
value of 70 or below before conducting a hearing
regarding the second criteria of diminished adaptive
behavior. Moreover, pursuant to Hall, 134 S.Ct. 1986,
trial courts must also adjust an individual’s score to
account for the standard error of measurement. See
also White v. Commonwealth, 500 S.W.3d 208, 214 (Ky.
2016) (pursuant to Hall, trial courts in Kentucky must
consider an IQ test’s margin of error when considering
the necessity of additional evidence of intellectual

App. 60
disability). As stated in Hall, the standard error of
measurement’s plus or minus 5 points. Id. at 1999.
Appellant submitted to the trial court his 1971 IQ test
score of 76. After applying the standard error of
measurement, Appellant’s IQ score has a range of 71 to
81. Such a score is above the statutory cutoff of 70,
thereby failing to meet the “significant subaverage”
requirement. Thusly, further investigation into his
adaptive behavior was unnecessary. Nonetheless,
Appellant submits that Hall forbids states from
denying further exploration of intellectual disability
simply based on an IQ score above 70. However, this
Court can find no such prohibition. The holding of Hall
renders a strict 70-point cutoff as unconstitutional if
the standard error of measurement is not taken into
account. Id. at 2000. In other words, Hall stands for the
proposition that prior to the application of the plus or
minus 5-point standard error of measurement, “an
individual with an IQ test score ‘between 70 and 75 or
lower’ may show intellectual disability by presenting
additional evidence regarding difficulties in adaptive
functioning.” Id. (quoting Atkins v. Virginia, 536 U.S.
304, 309, n. 5, (2002)). That is not the case before us, as
Appellant’s IQ, even after subtracting the 5-point
standard error of measurement, is higher than the
70-point minimum threshold.
We also reject Appellant’s request that we apply the
“Flynn Effect” to his IQ score. The Flynn Effect is a
term used to describe the hypothesis that “as time
passes and IQ test norms grow older, the mean IQ
score tested by the same norm will increase by
approximately three points per decade.” Bowling v.

App. 61
Commonwealth, 163 S.W.3d 361, 374 (Ky. 2005) (citing
James R. Flynn, Massive IQ Gains in 14 Nations: What
IQ Tests Really Measure, 101 Psych. Bull. 171-91(1987
No. 2)). Therefore, as applied, Appellant’s 1971 IQ
score of 76, would actually be 59 by today’s
standards—71 minus 12 points for the Flynn Effect
and 5 points for the standard error of
measurement—well below the 70-point threshold.
Appellant, however, fails to cite any precedential or
statutory authority indicating that trial courts must
take into account the Flynn Effect. Indeed, KRS
532.140 is unambiguous and makes no allowance for
the Flynn Effect, nor is such an adjustment mandated
by this Court or the U.S. Supreme Court. See Bowling,
163 S.W.3d at 375-76. Furthermore, even if the Court
was obliged to ignore the confines of KRS 532.135 and
place less weight on Appellant’s IQ score, there is
ample evidence of Appellant’s mental acumen. For
example, Appellant often advocated for himself through
numerous pro se motions. One such motion was written
so persuasively that defense counsel specifically asked
the trial court to rule on its merits. Consequently, we
find no error in the trial court’s denial of Appellant’s
motion for an evidentiary hearing or exclusion of the
death penalty.
Competency Hearing
Appellant also requests that the Court find reversible
error in the trial court’s failure to conduct a
competency hearing. Pursuant to defense counsel’s
motion, the trial court ordered Appellant to undergo a
competency evaluation. However, at the scheduled May
10, 2010 competency hearing, the trial court discovered

App. 62
that the Kentucky Correctional Psychiatric Center
(“KCPC”) was unable to perform an evaluation of
Appellant due to his refusal to cooperate. At the
scheduled hearing, Appellant informed the trial court
that he had several complaints regarding his counsel.
As it relates to the issue before us, Appellant explained
to the trial court that he was competent and did not
want to go to KCPC for an evaluation. Appellant
further urged the Court to consider his 1984 evaluation
which declared him competent. Several days later, the
trial court ordered Appellant’s counsel be removed due
to irreconcilable differences. The issue of competency
was not brought up again until Appellant’s motion for
a new trial in September of 2014, which was
subsequently denied.
Competency hearings are implicated on statutory and
constitutional grounds, both having separate standards
governing those rights. Per KRS 504.100(1) a trial
court must order a competency examination upon
“reasonable grounds to believe the defendant is
incompetent to stand trial.” Subsection (3) of the
statute then states that “[a]fter the filing of a report (or
reports), the court shall hold a hearing to determine
whether or not the defendant is competent to stand
trial.” Thusly, the state statutory right to a competency
hearing only arises after report of a competency
examination is filed.
The due process constitutional right to a competency
evaluation attaches when there is substantial evidence
that a defendant is incompetent. Id. When reviewing a
trial court’s failure to conduct a competency hearing we
ask “[w]hether a reasonable judge, situated as was the

App. 63
trial court judge whose failure to conduct an
evidentiary hearing is being reviewed, should have
experienced doubt with respect to competency to stand
trial.” Padgett v. Commonwealth, 312 S.W.3d 336,
345-46 (Ky. 2010) (quoting Thompson v.
Commonwealth, 56 S.W.3d 406, 408 (Ky. 2001)). It is
within the trial court’s sound discretion to determine
whether “reasonable grounds” exist to question
competency. Woolfolk v. Commonwealth, 339 S.W.3d
411, 423 (Ky. 2011).
With respect to Appellant’s statutory right to a
competency hearing, we believe that issue has been
waived. See Padgett, 312 S.W.3d at 344 (defendant
waived hearing after stating that competency was not
an issue). Appellant pleaded with the trial court not to
question his competency and his new counsel failed to
pursue the matter further.
Upon review of Appellant’s constitutional right to a
competency hearing, we cannot say that there were
reasonable grounds to suspect incompetency. As
already stated, Appellant assisted in his defense, often
advocating on his own behalf through numerous pro se
filings. Appellant was steadfast in the defense he
wished to present, even notifying the court of his
dissatisfaction with his defense team. Moreover,
Appellant was able to comport himself well in the
courtroom, conveyed his thoughts without difficulty,
and demonstrated a thorough understanding of the
charges he faced. In fact, the only indication that
Appellant was not competent to stand trial was defense
counsel’s movement for a competency evaluation. As
this Court has previously stated, “defense counsel’s

App. 64
statements alone could not have been substantial
evidence.” Padgett, 312 S.W.3d at 349. For these
reasons, we do not believe a reasonable judge would
have expressed doubt about Appellant’s competency to
stand trial.
Death Penalty
For his final claims of error, Appellant asserts
numerous arguments concerning the constitutionality
of Kentucky’s death penalty statutory scheme and the
trial court’s imposition of death. Appellant’s arguments
have already been settled by this Court. See Meece, 348
S.W.3d 627 (Kentucky’s death penalty is
constitutional); St Clair v. Com, 451 S.W.3d at 655
(proportionality review was sufficient, failure to define
reasonable doubt does not violate due process rights,
jury does not need to be instructed that it may choose
a non-death sentence even upon a finding of
aggravating circumstance, and no error in trial judge’s
report erroneously stating that a “passion and
prejudice” instruction was provided to the jury);
Dunlap v. Commonwealth, 435 S.W.3d 537 (Ky. 2013)
(Kentucky’s death penalty scheme is not
discriminatory, prosecutorial discretion does not render
death penalty inherently arbitrary, and jury was not
required to be informed of means of execution or parole
eligibility); Mills v. Commonwealth, 996 S.W.2d 473,
492 (Ky. 1999), overruled on other grounds by Padgett,
312 S.W.3d 336 (holding that there “is no requirement
that a jury be instructed that their findings on
mitigation need not be unanimous”).
Moreover, Appellant’s contention that our death
penalty statute violates the Sixth Amendment

App. 65
pursuant to Hurst v. Florida, — U.S. —, 136 S.Ct. 616,
193 L.Ed.2d 504 (2016) is unpersuasive. In Hurst, the
U.S. Supreme Court found Florida’s capital sentencing
scheme unconstitutional because the jury only issued
a sentencing recommendation, after which the judge
made the ultimate factual findings needed for the
imposition of death. Id. at 622-24. However, under the
Commonwealth’s statutory scheme, the trial court does
not usurp the jury’s role in finding the existence of
statutory aggravators needed for the imposition of the
death penalty.
Proportionality
Lastly, Appellant maintains that his death sentence
was excessive and disproportionate compared to similar
cases.
The Commonwealth, through its death penalty
statutes, has established a proportionality
review process. KRS 532.075(3)(c), Under KRS
532.075(1), “[w]henever the death penalty is
imposed for a capital offense . . . the sentence
shall be reviewed on the record by the Supreme
Court.” Further, Subsection (3)(c) provides that
“with regard to the sentence, the court shall
determine . . . [w]hether the sentence of death is
excessive or disproportionate to the penalty
imposed in similar cases, considering both the
crime and the defendant.”
Hunt v. Commonwealth, 304 S.W.3d 15, 52 (Ky. 2009).
“The Eighth Amendment to the United States
Constitution mandates that a death sentence be
proportionate to the crime the defendant committed.”

App. 66
Commonwealth v. Guernsey, 501 S.W.3d 884, 888 (Ky.
2016) (citing Coker v. Georgia, 433 U.S. 584, 592, 97
S.Ct. 2861, 53 L.Ed.2d 982 (1977) (A death sentence is
unconstitutional if it “is grossly out of proportion to the
severity of the crime.”)) “In addition to this
constitutional requirement for an inherently
proportional sentence, KRS 532.075 mandates
comparative proportionality review in all Kentucky
cases in which the death penalty is imposed.” Guernsey,
501 S.W.3d at 888. “Comparative proportionality
review is not mandated by the Eighth Amendment,
rather it is a requirement imposed solely by statute.”
Id. (citing Pulley v. Harris, 465 U.S. 37, 43-44, 104
S.Ct. 871, 875, 79 L.Ed.2d 29 (1984)); see also, Bowling
v. Parker, 344 F.3d 487, 521 (6th Cir. 2003) (“The
Supreme Court has held that the Constitution does
require proportionality review, but that it only requires
proportionality between the punishment and the crime,
not between the punishment in this case and that
exacted in other cases[ ]”); Caudill v. Commonwealth,
120 S.W.3d 635, 678 (Ky. 2003) (“There is no
constitutional right to a [comparative] proportionality
review[ ]”).
Our independent review of the record, pursuant to KRS
532.075, reveals that Appellant’s death sentence was
not imposed under the influence of passion, prejudice,
or any other arbitrary factor. As in Hunt,
the sentence is not disproportionate to the
penalty imposed in similar cases since 1970
considering both the crime and the defendant.
Rather than belaboring this opinion with a
string cite containing the cases we examined

App. 67
during the course of our proportionality review,
we incorporate by reference the list found in
Hodge v. Commonwealth, 17 S.W.3d 824, 855
(Ky. 2000). We have incorporated that list in
other cases, such as Parrish v. Commonwealth,
121 S.W.3d 198, 208 (Ky. 2003). We have also
reviewed the applicable cases rendered after
Hodge. See, e.g., Fields v. Commonwealth, 274
S.W.3d 375, 420 (Ky. 2008) (giving “particular
attention” to other cases involving single
murders in performing proportionality review of
death sentence in case involving murder in the
course of burglary).
304 S.W.3d at 52.
Under the circumstances of Appellant’s case, and the
heinous nature of the crimes he committed, we
conclude that imposition of the death penalty was
justified.
Conclusion
For the aforementioned reasons, we affirm the
Jefferson Circuit Court’s judgment and sentence of
death.
Attachment
ORDER GRANTING
MODIFICATION

PETITION

FOR

The Petition for Modification, filed by the Appellant, of
the Opinion of the Court, rendered on August 24, 2017,
is hereby GRANTED.
All sitting. All concur.

App. 68
ENTERED: March 22, 2018.
/s/ John D. Minton, Jr.
CHIEF JUSTICE
OPINION OF
CUNNINGHAM

THE

All sitting. All concur.

COURT

BY

JUSTICE

App. 69

APPENDIX E
JEFFERSON CIRCUIT COURT
DIVISION TWO
NO: 07-CR-4230
____________________________________
COMMONWEALTH OF KENTUCKY )
)
PLAINTIFF
)
)
V.
)
)
LARRY LAMONT WHITE
)
)
DEFENDANT______________________ )
OPINION AND ORDER
This matter comes before the Court on the
Defendant’s Motion by counsel for Judgment
Notwithstanding the Verdict and pro se Motion for a
New Trial/Motion to Dismiss. The Commonwealth has
filed a response applicable to both motions. Oral
arguments were heard on September 8, 2014 and the
issues now stand submitted.
The Defendant was tried by jury commencing on
July 14, 2014 through July 28, 2014. He was found
guilty of Murder and First Degree Rape in the death of
Pamela Denise Armstrong. The jury recommended a
twenty year sentence for First Degree Rape and Death

App. 70
on the charge of Murder. Sentencing is now scheduled
for September 26, 2014.
R. Cr. 10.24 states that: Not later than five (5) days
after the return of a verdict finding a defendant guilty
of one or more offenses, or after the discharge of the
jury following their having not returned a verdict, a
defendant who has moved for a directed verdict of
acquittal at the close of all the evidence may move to
have the verdict set aside and a judgment of acquittal
entered, or for a judgment of acquittal. Likewise, if a
defendant has been found guilty under any instruction
to which at the close of all the evidence was not
sufficient to support a verdict of guilty under that
instruction, that a defendant may move that to that
extent the verdict be set aside and a judgment of
acquittal entered. A motion for a new trial may be
joined with this motion.
R.Cr. 10.02 states that: (1) Upon motion of a
defendant, the court may grant a new trial for any
cause which prevented the defendant from having a
fair trial, or if required in the interest of justice. Of
trial was by the court without a jury, the court may
vacate the judgment, take additional testimony an
direct the entry of a new judgment. (2) Not later than
ten (10) days after return of the verdict, the court on its
own initiative may order a new trial for any reason for
which it might have granted a new trial on motion of a
defendant, and in the order shall specific the grounds
therefor.” R. Cr. 10.06 provides that such a motion
must be served no later than five ( 5) days after the
verdict.

App. 71
In support of his post-trial motions, the Defendant,
by counsel, has made twenty-eight assignments of
error.
1.

The Court erred by failing to hold a
competency hearing. The Court ordered an
evaluation, but it was never carried out. The
Defendant argues that the Court’s refusal to
hold a hearing violated his rights. However,
unlike the case at bar, in Pate v. Robinson,
383 U.S. 375, 86 S. Ct. 836, 15 L. Ed. 815
(1966) counsel made diligent efforts
throughout the trial process to advise the
Court on the defendant’s competency issues.
Indeed, counsel argues that the Defendant’s
refusal to participate in the sentencing phase
could have been the result of some mental
condition. However, this Court did not refuse
to hold a hearing. As argued by the
Commonwealth in its response, it is not
mandatory. In Padgett v. Commonwealth,
312 SW 3d 336 (Ky. 2010) the Court held
that there must be substantial evidence of
record that the defendant is incompetent in
order to require a hearing. The
Commonwealth asserts that the Defendant’s
active participation in this case, by way of
filing his own well-considered pro se motions,
demonstrate that he was competent to stand
trial. As stated in Windsor v. Commonwealth,
413 SW 3d 568 (Ky. 2010), only where there
are reasonable grounds to question a
defendant’s competency is a hearing
required. This Court did not err.

App. 72
2.

The Court erred by failing to recuse itself
based on prior representation of the
Defendant, see Small v. Commonwealth, 617
SW 2d 61 (Ky. App. 1961). It is the
Defendant’s position that he was convicted in
that case and that the fact of that conviction
was introduced during the sentencing phase
herein, see Woods v. Commonwealth, 793 SW
2d 809 (Ky. 1990). Nevertheless, as asserted
by the Commonwealth in its response, the
previous conviction was not in controversy in
this case and therefore recusal was not
required, see Matthews v. Commonwealth,
371 SW 3d 743 (Ky. App. 2011). The Court
finds the Small, supra, case to be factually
distinguishable in that it involved a judge
and former prosecutor who was to preside
over the revocation of the sentence that he
offered to the defendant as prosecutor.
Likewise, the Woods supra, case is
distinguishable since that case involved the
previous conviction and formed the basis for
the trial court’s recusal.

3.

The Court erred by permitting the Court to
introduce evidence pursuant to KRE 404 (b).
It is the Defendant’s position that he was
unavoidably prejudiced by the introduction of
his previous Murder convictions, see Clay v.
Comonwealth, (a drug case) 818 SW 2d 264
(Ky. 1991); Commonwealth v. Ramsey, (DUI
case) 920 SW 2d 526 (Ky. 1996). As the
Commonwealth noted in its response, this
issue was thoroughly litigated prior to trial.

App. 73
This Court stands by the propriety of its
previous ruling and incorporates those
authorities relied upon in its previous
Opinion. The cases cited by the Defendant
are distinguishable. Clay involves a drug
conviction and Ramsey involves a DUI 4th.
While the evidence of prior convictions was
not proper in the guilt phase of the trial, it
was proper in the sentencing phase.
However, this is not the situation in the case
at bar, since prior conviction evidence in this
case is admissible only for the purpose of
showing modus operandi and the jury was so
admonished.
4.

The Court erred by failing to allow the
defense to voir dire the prospective jurors
regarding his prior convictions. The case of
Hayes v. Commonwealth, 175 SW 3d 574 (Ky.
2005), cited by the Defendant involves two
separate issues. The previous convictions
used in Hayes were, similar to convictions
herein, for the purpose of showing motive,
intent or plan and not to show guilt by
demonstrating that the Defendant acted in
conformity with bad character. Moreover, in
Hayes, the defense sought to voir dire the
jury about the defendant’s refusal to testify
and not about the effect of the prior
convictions. As submitted by the
Commonwealth, the extent of voir dire is in
the sound discretion of the trial court, see
Pollini v. Commonwealth, 172 SW 3d 418

App. 74
(Ky. 2005); Woodall v. Commonwealth, 63
SW 3d 104 (Ky. 2001).
5.

The Court erred by excusing jurors who had
reservations about the death penalty but
retaining others who favored the death
penalty over a term of years. However, the
Defendant has failed to identify any such
biased jurors and therefore the Court is
without a basis to evaluate the Defendant’s
claim. The Court has discretion to order a
new trial where it is shown that the
Defendant did not have a fair trial and bias
of a juror is shown, see Combs v.
Commonwealth, 356 SW 2d 761 (Ky. 1962).
There has been no such showing herein.

6.

The Court erred by failing to grant the
Defendant’s motion for a mistrial based on
publicity the morning of trial. The Court gave
the prospective jurors an admonition on this
issue and no jurors who had preconceived
ideas based on the news story have been
identified, see Wood v. Commonwealth, 178
SW 3d 500 (Ky. 2005).

7.

The Court erred by denying the Defendant
additional peremptory challenges. Relying on
the authority set forth in Woodall v.
Commonwealth, 63 SW 3d 104 (Ky. 2001),
the Commonwealth argues that the
Defendant was given just as many strikes to
exercise as the Commonwealth. Indeed, the
challenges were allocated as set forth in R.
Cr. 9.40 (1) and (2).

App. 75
8.

The Court erred by failing to sequester the
jury between the guilt and sentencing
phases. The Commonwealth notes that this
matter is in the sound discretion of the trial
judge, see Bowling v. Commonwealth, 942
SW 2d 293 (Ky. 1997). This is an issue of
judicial discretion and the Court found no
basis which would warrant restricting the
jurors’ liberty.

9.

The Court erred by failing to suppress the
fruits of the traffic stop that yielded the cigar
butt used to obtain the Defendant’s DNA.
This issue was litigated prior to trial and the
Court found that no basis for suppression.
This Court stands by the propriety of its
previous ruling and incorporates those
authorities relied upon in its previous
Opinion.

10.

The Court erred by failing to dismiss the
Indictment on speedy trial grounds. The
Commonwealth notes that the case of
Dunaway v. Commonwealth, 60 SW 3d 563
(Ky.) sets forth the factors to be considered
by a trial court in determining whether
dismissal based on failure to grant a speedy
trial. These are: 1) the length of the delay; 2)
the reason for the delay; 3) whether the right
has been asserted; and 4) prejudice caused by
the delay. The Commonwealth submits that
all the delays herein have been the result of
the Defendant’s conduct in repeatedly
terminating assigned counsel. This Court

App. 76
stands by the propriety of its previous ruling
and incorporates those authorities relied
upon in its previous Opinion.
11.

The Court erred by permitting the
Commonwealth to introduce the victim’s
autopsy results through Dr. Mary Corey,
although she was not the medical examiner
at the time the autopsy was performed. The
Commonwealth notes that Dr. Corey’s
qualifications pursuant to KRE 701 and 703
were not questioned at trial. The Court finds
that the evidence was properly introduced.

12.

The Court erred by overruling the
Defendant’s motion for a mistrial based on
the testimony of Robert Grevious about the
neighborhood where the victim’s body was
discovered. As argued by the Commonwealth,
the Defendant cites no authority for this
allegation of error. As in any case, the Court
analyzes evidence based on the standards set
forth in KRE 403. Based on this standard,
the Court did not err.

13.

The Court erred by overruling the
Defendant’s objection to the introduction of
1983 photographs of Pamela Armstrong’s
children. The Defendant asserts that it was
not proper to introduce this type of evidence
in the guilt phase. Victim humanization has
long been recognized as a permissible basis
for the introduction of such photos, see
Adkins v. Commonwealth, 96 SW 3d 779 (Ky.
2003); Love v. Commonwealth, 55 SW 3d 816

App. 77
(Ky. 2001). Also, as argued by the
Commonwealth, these photos illustrate in a
graphic way the reason that Pamela
Armstrong’s children are unable to
remember facts and circumstances
surrounding the crime.
14.

The Court erred by failing to exclude
evidence for which the Commonwealth had
not shown the chain of custody. Such items
include, the victim’s panties, cuttings from
the panties, the DNA of the Defendant, the
rape kit, keys and identification. The
Commonwealth argues that it need not show
a perfect chain of custody, as long as there is
persuasive evidence that the reasonable
probability is that the evidence has not been
altered, see Helphenstine v. Commonwealth,
423 SW 3d 708 (Ky. 2014). As asserted by the
Commonwealth, any gaps in the chain of
custody go to the weight of such evidence and
not its admissibility.

15.

The Court erred by failing to give a missing
evidence instruction as to the lost food stamp
manifest and TARC schedule from the crime
scene. The Defendant contends that these
items could be exculpatory as described in
Brady v. Maryland, 373 U.S. 83, 83 S. Ct.
1194, 10 L. Ed. 215 (1963). Sweatt v.
Commonwealth, 550 SW 2d 520 (Ky. 1977) is
distinguishable in that it involved the
identification of another as the assailant.
Clearly, the case at bar is a closer call.

App. 78
Pursuant to Couthard v. Comonwealth, 230
SW 3d 572 (Ky. 2007), such an instruction is
required only where the failure to preserve
the evidence is intentional and the evidence
was potentially exculpatory. Although the
Defendant contends that the evidence could
have been exculpatory, there is no allegation
that either law enforcement or agents of the
Commonwealth intentionally disposed of it or
otherwise allowed it to disappear.
16.

The Court erred by preventing the Defendant
from putting forth an “alternative
perpetrator” defense by limiting his crossexamination of Detective Wilson regarding
potential suspects and their criminal history.
A criminal defendant has the right to present
exculpatory evidence. However, the Court
may infringe upon that right where the
alternative theory is “unsupported,
speculative or far-fetched.” Dickerson v.
Commonwealth, 174 SW 3d 451 (Ky. 2005). It
is the Commonwealth’s position that the door
to such cross-examination was open, see
Moore v. Commonwealth, 983 SW 2d 479 (Ky.
1998). The Court concludes that its ruling
was proper, since there was no significant
proof on the issue of an alternative
perpetrator and additional questioning would
have been a mere fishing expedition.

17.

The Court erred by failing to direct a verdict
of acquittal on the grounds that there was no
direct evidence that he was involved in

App. 79
Pamela Armstrong’s shooting. There was no
way to determine when the semen (DNA)
was deposited on her underwear. There was
no evidence of forcible compulsion. There was
no evidence presented regarding the murder
weapon. This Court stands by the propriety
of its previous ruling.
18.

The Court erred by permitting prosecutorial
misconduct with regard to statements made
in the Commonwealth’s argument regarding
the previous murders. Although the Court
allowed the introduction of those convictions
to show modus operandi, the Defendant
asserts that the Commonwealth went
farther, see Osborne v. Commonwealth, 867
SW 2d 484 (Ky. App. 1983). The
Commonwealth denies exceeding the scope of
the allowed use of the previous murders.
There have been no citations to the record
with regard to any specific instances of
prosecutorial misconduct and the Court has
no independent recollection that the
convictions were used for any other purpose
than to show a unique criminal signature.

19.

The Court erred by permitting prosecutorial
misconduct with regard to Roger Ellington’s
testimony. It is the Defendant’s position that
the Commonwealth used Ellington’s
testimony as a way to draw attention to the
Defendant’s decision not to testify. The
Commonwealth indicates that it was at all
times aware of its obligation to respect the

App. 80
Defendant’s right to remain silent, see
Ordway v. Commonwealth, 391 SW 3d 762
(Ky. 2013).
20.

The Court erred by permitting prosecutorial
misconduct in the Commonwealth’s opening
statement when Mr. Balcer referred to the
Defendant’s “deadly works of art.” The
Commonwealth states that it is entitled to
wide latitude in regard to closings, see
Brewer v. Commonwealth, 206 SW 3d 343
(Ky. 2006). The Court finds that the
prosecution did not exceed proper
boundaries.

21.

The Court erred by permitting prosecutorial
misconduct in the sentencing phase by
referring to the Defendant’s “genocide.” The
Defendant argues that a mistrial should have
occurred. The Commonwealth states that it
is entitled to wide latitude in regard to
closings, see Brewer, supra. The Court finds
that the prosecution did not exceed proper
boundaries.

22.

The Court erred by permitting the
Commonwealth to urge the jurors to consider
the previous murders beyond the limited
scope (i.e. modus operandi) ordered by the
Court, see Brewer, supra. The Court finds
that the prosecution did not exceed proper
boundaries.

23.

The Court erred by permitting prosecutorial
misconduct by referring to the DNA found on

App. 81
the pants. The Defendant asserts that the
DNA was unidentifiable and certainly not
his. The Commonwealth states that it is
entitled to wide latitude in regard to closings,
see Brewer, supra. The Court finds that the
prosecution did not exceed proper
boundaries.
24.

The Court erred by accepting the jury’s
verdict when the jury did not find an
aggravator. The jurors found that the
Defendant committed “Rape” but did not find
that the Murder was perpetrated “in the
commission of the Rape.” It is the
Commonwealth’s position that the jury’s
finding was not unconstitutional. The
Commonwealth asserts that the jurors were
properly instructed, see Dunlap v.
Commonwealth, 435 SW 3d 537 (Ky. 2013).

25.

The Court erred by permitting the
Commonwealth to refer to Cleola Moore as a
“cook,” see Moore v. Commonwealth, 634 SW
2d 426 (Ky. 1982). The Commonwealth
reiterates that it is entitled to wide latitude
in regard to closings, see Brewer, supra. The
cases cited indicate that the prosecutor
should not express a personal opinion of a
witness’ character. However, in this case, the
word “cook” is merely descriptive without any
reflection on her character. The Court finds
that the prosecution did not exceed proper
boundaries.

App. 82
26.

The Court erred by permitting the
Commonwealth from referencing the
Defendant’s previous statements without the
Court’s admonition. The Commonwealth
states, once again, that it is entitled to wide
latitude in regard to closings, see Brewer,
supra. The Court finds that the prosecution
did not exceed proper boundaries.

27.

The Court’s errors accumulated such that a
new trial is necessary, see Funk v.
Commonwealth, 842 SW 2d 476 (Ky. 1992).
The Commonwealth asserts that cumulative
error can only serve as the basis for a new
trial where individual errors are substantial
or prejudicial, see Epperson v.
Commonwealth, 197 SW 3d 46 (Ky. 2006).
The case at bar is distinguishable from Funk,
which involved the admission of grisly
photos, the broad use of a prior conviction
and the withholding of exculpatory evidence.

28.

The Court erred by failing to hold a hearing
pursuant to KRS 532.130 to determine
whether his IQ, as established in 1971, was
sufficiently low to preclude the death penalty
as a possible sentence based on the authority
set forth in Hall v. Florida, 572 U.S._(2014).
The Commonwealth notes that there was no
pretrial motion to exclude the death penalty
based on the level of the Defendant’s
intelligence. However, the Commonwealth
argues that, based on Hall, it takes more
than merely a showing of borderline

App. 83
intelligence to eliminate the death penalty.
The Defendant has cited no other evidence
regarding any impairment.
In support of the post-trial motions, the Defendant, pro
se, has made seven assignments of error:
1. The Defendant argues that the Commonwealth
failed to prove Rape as an aggravator. In Brown
v. Commonwealth, 313 SW 3d 577 (Ky. 2010),
the Court held that acquittal of the death
penalty only occurs where the Commonwealth
fails to show the “existence of an aggravator
[Emphasis added].” While the verdict form does
not state that the jury found the Defendant
guilty of Murder “in the commission” of a Rape,
it did find him guilty of Murder and Rape in the
same time and place and with the same victim.
2. The Defendant argues that the Commonwealth
failed to introduce evidence of sexual
intercourse. His DNA was found in and on the
victim. This evidence is clearly probative. The
Defendant did not assert that he had consensual
sexual relations with the victim. Therefore, it
was permissible for the jury to infer that the
DNA was forcibly injected into her. This Court
did not err.
3. The Defendant argues that the Commonwealth
failed to prove Murder. The jury was properly
instructed under Instruction No. 1, that the
Defendant “killed Pamela Armstrong by
shooting her with a handgun; AND B. That in so
doing, he caused the death of Pamela Armstrong

App. 84
intentionally.” In Potts v. Commonwealth, 172
S.W.3d 345 (Ky. 2005) the Court cited Jackson v.
Virginia, 443 U.S. 307, 99 S.Ct. 2781, 61 L.Ed.2d
560 (1979), wherein the United States Supreme
Court stated that, “the relevant question is
whether, after viewing the evidence in the light
most favorable to the prosecution, any rational
trier of fact could have found the essential
elements of the crime beyond a reasonable
doubt.” The Commonwealth set forth evidence
on each of the elements set forth in the Court’s
instructions to the jury and therefore, there has
been no error as to either the Rape or Murder
verdicts.
4. The Defendant argues that the Court’s ruling
permitting the use of KRE 404 (b) evidence in
the form of the previous Murder convictions was
prejudicial in spite of the Court’s admonition not
to consider it as substantive evidence of guilt.
This issue was thoroughly litigated before trial,
not once but twice. The prejudicial effect of the
prior convictions was clearly outweighed by their
probative value, KRE 403.
5. The Defendant argues that the Commonwealth,
in its closing argument, should not have been
permitted to urge the jurors to use their
“common sense.” As previously noted, the
Commonwealth has wide latitude in regard to
closing arguments, see Brewer, supra.
6. The Defendant argues that the Court’s
instruction on Rape was deficient pursuant to
KRS 510.040 (1) (a), see Yates v. Commonwealth,

App. 85
430 SW 3d 883 (Ky. 2014). This Court’s
Instruction No. 2 in the guilt phase of the trial
indicates that the jury “must believe from the
evidence, beyond a reasonable doubt” that the
Defendant “engaged in sexual intercourse with
Pamela Armstrong; AND B. That he did so by
forcible compulsion.” It is the Defendant’s
position that “lack of consent” is an essential
element of the crime, without which he may not
stand convicted. However, those words only
appear in the statute in the alternative and as
applicable to those incapable of consent because
of their status as helpless or younger than 12.
Therefore, they would not apply to this fact
situation.
7. The Defendant argues that the sum of the
cumulative error in the proceedings warrant a
new trial pursuant to R. Cr. 10.26, see Potts,
supra. This Court finds that there has been no
“manifest injustice.”
The decision as to whether or not to grant a new
trial rests in the sound discretion of the trial judge, see
Pennington v. Commonwealth, 220 SW 2d 761 (Ky.
1949). The Court having reviewed the arguments of the
Defendant and his counsel, as well as the response of
the Commonwealth, and having reviewed all cited
authority as set out herein;
IT IS HEREBY ORDERED AND ADJUDGED that
the Defendant’s motion, by counsel, for a new trial
and/or for judgment notwithstanding the verdict is
DENIED.

App. 86
IT IS FURTHER ORDERED that the Defendant’s
motion, prose, for a new trial and/or to dismiss is
DENIED.
/s/ James M. Shake
JAMES M. SHAKE, JUDGE
JEFFERSON CIRCUIT COURT
DIVISION TWO
DATE:________________________

Cc:

Mark S. Baker
Mark Hall
Darren Wolff

App. 87

APPENDIX F
JEFFERSON CIRCUIT COURT
DIVISION TWO (2)
JUDGE JAMES M. SHAKE
NO. 07-CR-4230
[Filed: August 4, 2014]
_______________________________________
COMMONWEALTH OF KENTUCKY
)
)
PLAINTIFF
)
)
vs.
)
)
LARRY LAMONT WHITE
)
)
DEFENDANT _________________________)
************
NOTICE
Please take notice that the defendant, through counsel,
will make the following motion and tender the attached
Order during the Court’s regularly scheduled motion
hour, on Monday, or as soon thereafter as counsel may
be heard.

App. 88
MOTION FOR NEW TRIAL ANDJUDGMENT
NOTWITHSTANDING THE VERDICT
Comes the Defendant, Larry Lamont White, by
counsel, and pursuant to RCr 10.02, 10.06, and 10.24,
moves the Court to grant him a new trial, or, in the
alternative, to grant him a judgment of acquittal
notwithstanding the verdict. The grounds for this
motion are set forth below. Specifically, the defendant
was denied a fair trial and should be granted a new
trial because:
1. The court entered an order requiring the
defendant to be transported to KCPC to have a
competency evaluation early in the case; however, to
the best of the knowledge and belief of the undersigned
counsel, there is no evidence in the record that a
hearing on that evaluation ever took place. Competency
hearings are mandatory and the court’s refusal to
conduct that hearing violates the defendant’s right to
a fair trial. Pate v. Robinson, 383 U.S. 375, 86 S.Ct.
836, 15 L.Ed 815 (1966). Mr. White refused to
participate in the sentencing and mitigation portion of
his capital murder trial. This could very well have been
a factor in his competency and a hearing prior to the
start of the trial should have been conducted. Failure
to do so violated his federal and state constitutional
rights.
2. The court denied the motion requesting that
Judge James M. Shake recuse himself from the
proceedings. This motion was properly preserved in
writing at the beginning of jury selection. The court
denied the defendant’s request on the grounds that the
request was made untimely; however, despite the

App. 89
repeated requests made by the defendant for the court
to rule on the substance of the defendant’s motion
requesting recusal, the court refused to make those
findings. A judge should disqualify himself in any
proceeding where he has participated in previous
proceedings concerning the same defendant to the
extent that this impartiality may reasonably be
questioned. Small v. Commonwealth, 617 S.W.2d 61
(Ky.App. 1961). In this case, Judge Shake represented
the defendant in a jury trial for sexual abuse that
occurred in 1981. The defendant was convicted and
sentenced to three years for this conviction. This
conviction and sentence was admitted during the
sentencing portion of this indictment and was
considered by the jury in their deliberations sentencing
the defendant to death. See Woods v. Commonwealth,
793 S.W.2d 809 (Ky. 1990).
3. The trial court erred in allowing the jury to hear
evidence of Mr. White’s previous criminal conduct,
including two previous murder convictions in the
guilt/innocence phase of the trial. The court allowed the
jury to hear this evidence pursuant to KRE 404(b) as
evidence of modus operandi, or identity evidence. The
effect on the jury hearing this evidence was unduly
prejudicial to Mr. White and prevented him from
receiving a fair trial in violation of his federal and state
constitutional rights. This information should have
been reserved for the sentencing portion of the trial,
rather than during the guilt/innocence portion. “No
reference shall be made to the prior offense until the
sentencing phase of the trial, and this specifically
includes reading of the indictment prior to or during
the guilt phase.” Clay v. Commonwealth, 818 S.W.2d

App. 90
264, 265 (Ky. 1991). Failure to do so results in
“unavoidable prejudice” to the defendant.
Commonwealth v. Ramsey, 920 S.W.2d 526, 528 (Ky.
1996).
4. The trial court erred by not allowing the
defendant to voir dire the jury panel regarding their
ability to be fair and impartial upon hearing evidence
of prior criminal convictions of Mr. White during the
guilt/innocence portion of the trial. Mr. White
requested that he be allowed to voir dire the jury as to
whether they would be able to provide the defendant
with a fair trial, and view him to be innocent, until
proven guilty by the evidence presented by the
Commonwealth, despite hearing evidence of his past
criminal conduct. The defendant argued that the
court’s admittance of the other bad act evidence shifted
the burden of proof from the Commonwealth to Mr.
White; consequently, he should have been allowed to
question the jurors prior to them being seated as jurors
to ensure they could be impartial and not prejudiced by
the evidence. “Part of the guarantee of a defendant’s
Sixth Amendment right to an impartial jury is an
adequate voir dire to identify unqualified jurors. A voir
dire examination must be conducted in a manner that
allows the parties to effectively and intelligently
exercise their right to peremptory challenges and
challenges for cause.” Hayes v. Commonwealth, 175
S.W. 3d 574, 584 (Ky. 2005), quoting Morgan v. Illinois,
504 U.S. 719, 729-30, 112 S.Ct. 2222, 2230, 119 L.Ed.
492 (1992). Additionally, based upon the court allowing
the Commonwealth to present evidence of other bad act
evidence, including previous criminal convictions, the
jury should have been allowed to be questioned on

App. 91
whether that evidence caused the prospective jurors to
form an opinion as to the defendant’s guilt.
5. The trial court excused jurors who indicated that
they had reservations about the imposition of the death
penalty and retained jurors who said they would tend
to vote for the death penalty rather than a term of
years. This was indicative of the unfair nature of the
trial that the defendant received. The defendant filed
a written motion prior to jury selection requesting that
the court not allow this to happen. It happened.
6. The court failed to grant the defendant’s motion
for a mistrial based on the false newspaper article that
was printed the morning of the trial. The article was
printed in The Courier Journal on the day of opening
statements and contained false and misleading
information; Attached hereto as Exhibit A.
7. The court denied the defendant’s request for
additional preemptory strikes which he requested.
8. The trial court failed to sequester the jurors
between the guilt/innocence findings and the
sentencing portion of the trial. This failure left open
the possibility that jurors or members of their family
were exposed to and could have read a newspaper
article or viewed a television report of the case and,
therefore, were able to consider facts that were not
presented to them in the trial of the case. The failure of
the court to sequester the jury in addition to the
possibility that the jurors were exposed to information
that they did not obtain from the evidence presented
during the trial, denied the defendant a fair trial in
violation of his constitutional rights.

App. 92
9. The trial court’s failure to suppress the collection
of the cigar butt during the traffic stop that occurred on
February 21, 2006, as well as any evidence collected as
a result of that stop and seizure, denied the defendant
a fair trial. The factual and legal grounds requiring
suppression of the evidence collected during the stop
was addressed and set forth in the defendant’s motion
to suppress that was filed and litigated prior to trial.
10. The trial court’s failure to grant the defendant’s
motion to dismiss the indictment based upon the
violation of his constitutional right to a speedy trial.
11. The Commonwealth was allowed to present the
testimony of the autopsy findings of Pamela Armstrong
through Dr. Mary Corey although Dr. Corey was not
the medical examiner that performed the autopsy on
Ms. Armstrong.
12. The Court overruled the Defendant’s motion for
a mistrial when Mr. Robert Grevious was allowed to
testify to the jury that following the June/July 1983
time period the neighborhood where he lived, and
where Ms. Armstrong’s body was found, became a bad
neighborhood and went “to hell.”
13. The Court overruled the defendant’s objection to
the Commonwealth being allowed to present a
photograph of Pamela Armstrong’s children, during
1983. Commonwealth’s Exhibit 18 and 19. These
photographs were introduced to enflame the passions
of the jury and were not relevant to any fact that was
at issue in the trial of the matter, nor did the evidence
tend to prove any element of the offense that the
defendant was charged with and indicted for. The

App. 93
evidence was basically sentencing evidence that was
allowed to be introduced during the guilt/innocence
phase of the trial and was improper.
14. The Commonwealth did not adequately prove
the proper chain of custody for the scientific evidence
that was presented to the jury and allowed to be
entered into evidence, including the evidence of the
victim’s panties, the cuttings taken from the panties,
the DNA sample collected from the defendant,
including the cigar butt and the buccal swab, the rape
kit exhibits collected from Pamela Armstrong, the keys
that were collected under the body of Pamela
Armstrong, the photo identification/driver license of
Pamela Armstrong collected at the scene, and the other
evidence that was admitted by the court, objected to by
the defendant, and considered by the jury.
15. The Court failed to give to the jury a missing
evidence instruction. The defendant requested a
missing evidence instruction based upon the lost food
stamp manifest that Detective Wilson acknowledged he
received and that was no longer available. Detective
Wilson acknowledged that the information contained in
the manifest would have been important and relevant
to determine if other suspects may have been at the
food stamp store with Ms. Armstrong on the day of her
death. Additionally, the TARC bus schedule that was
photographed at the scene but was not available at the
trial of this matter. The failure of the Commonwealth
to preserve this evidence constitutes a violation of the
defendant’s rights to exculpatory material. Brady v.
Maryland, 373 U.S. 83, 87; 83 S.Ct. 1194, 1197; 10

App. 94
L.Ed. 215 (1963); see also Sweatt v. Commonwealth,
550 S.W.2d 520 (Ky. 1977).
16. The Court would not allow the defendant to
question Detective Wilson on the criminal histories of
other potential suspects, including fathers of Ms.
Armstrong’s children, i.e. Roger Ellington, Lawister
Robinson, etc . . . The court’s denial of this type of
evidence prevented the defendant from fully developing
his theory of defense in violation of his constitutional
due process rights, both federal and state. The inability
of the defendant to adequately develop his defense,
basically an “alternative perpetrator” defense, denied
him a fundamental right protected by the federal and
state constitutions. Dickerson v. Commonwealth, 174
S.W.3d 451 (Ky. 2005), quoting Beaty v.
Commonwealth, 125 S.W.3d 196, 206-207 (Ky. 2003).
This is especially so in this case based upon the
number of potential suspects that had a potential
motive and opportunity to commit the crime that the
defendant was convicted of.
17. The defendant’s motion for directed verdict
should have been sustained as the Commonwealth
presented no direct evidence that Mr. White was
directly involved in the shooting of Pamela Armstrong.
Strong evidence was presented that indicated that
there was no possible way to determine when the
semen and DNA was deposited into the victim’s
underwear. Additionally, there was no evidence
presented of forcible compulsion to prove a rape. There
was no evidence presented to prove a murder weapon
or of that murder weapon having any connection to the
defendant. Consequently, the defendant’s numerous

App. 95
motions for a directed verdict and a mistrial should
have been sustained.
18. The prosecutor’s argument to the jury during
the guilt/innocence was improper because the
argument referenced the previous murders of Deborah
Miles and Yolanda Sweeney. The prosecutor’s
references to the other two murders violated the court’s
previous admonition to the jury that the evidence could
only be used for modus operandi. Osborne v.
Commonwealth, 867 S.W. 484 (Ky.App. 1993)(held that
the misuse of evidence of limited admissibility can
constitute reversible error.)
19. The prosecutor’s argument to the jury during
the guilt/innocence was improper. During the closing
argument, the Commonwealth argued that Roger
Ellington was interviewed by the jury during his
testimony at the trial. The prosecutor walked onto the
“witness stand” during these comments and informed
the jury that Mr. Ellington was interviewed in open
court, under oath. This reference was improper because
it essentially was an indirect comment on the
defendant’s decision not to testify in violation of his
Fifth Amendment right to remain silent. Additionally,
it was improper bolstering of the credibility of a
witness.
20. The prosecutor’s opening statement during the
sentencing portion of the trial was improper because it
referred to the murders of Deborah Miles and Yolanda
Sweeney as “the defendant’s other two deadly works of
art.” Again, these sort of references were inflammatory
and improper and caused the jury to consider that

App. 96
evidence for more than the court authorized it to be
used pursuant to KRE 404(b ).
21. The defendant was denied a fair trial and should
be granted a new trial, including a new sentencing
hearing, based upon the improper argument of the
prosecutor during the Commonwealth’s argument to
the jury during the sentencing portion of the trial. The
prosecutor referred to the acts that Mr. White was
convicted of as “genocide.” This argument was improper
and the mistrial that was requested by counsel should
have been granted.
22. The prosecutor’s references to the jury during
the sentencing argument was improper because the
prosecutor asked the jury to consider the evidence that
the court had previously instructed them to consider
solely for evidence of modus operandi, or identity, to fix
their sentence. In this case, Mr. White was sentenced
to death, not solely for the commission of the Pamela
Armstrong murder but he was also resentenced for the
murders of Deborah Miles and Yolanda Sweeney. In
fact, the prosecutor’s references to “genocide” and the
prosecutor telling the jury that the defendant “deserved
a gold medal for what he did” suggesting that the jury
consider giving him a gold medal, rather than a silver
or a bronze medal, suggested to the jury that they
should and could punish Mr. White, not solely for the
murder of Pamela Armstrong, but also for the other
two murders that he had previously been convicted of
and that he had already served his time for. These
arguments were tantamount to the prosecution asking
the jury ‘’to send a message.” This type of argument

App. 97
has been considered and frowned upon in Brewer v.
Commonwealth, 206 S. W .3d 343, 351 (Ky. 2006).
23. The prosecution continually made reference to
the jury that the semen found on the victim’s pants was
the defendants. However, the evidence that was
presented to the jury clearly illustrated, without any
differing interpretation, that the semen that was found
on the victim’s pants was unidentifiable and no match
to anyone’s DNA was made, or could be made.
Consequently, the Commonwealth’s continued
references to the semen on the pants constituted facts
that were not in evidence. This error was preserved
and requires a new trial be granted. See Duncan v.
Commonwealth, 322 S.W.3d 81 (Ky. 2010), where court
found that the prosecutor’s depiction, in crossexamination and closing argument, of the DNA
evidence as conclusively identifying the defendant
when in fact the DNA expert testified that there was
only a partial match, was fundamentally unfair and
required reversal.
24. The defendant should be granted a new trial,
including a new sentencing hearing, because the jury
did not properly find an aggravating circumstance
sufficient to support a death sentence. The statutory
authority for a death sentence requires the fact-finder
to find beyond a reasonable doubt that the murder was
committed while the defendant “was in the commission
of a rape.” In this case, the jury simply found “RAPE.”
This was improper and violates the defendant’s right to
a fair trial. The finding was unconstitutionally vague
and, consequently, the defendant deserves a new trial,
and a new sentencing hearing.

App. 98
25. The court refused to properly admonish the jury
during the sentencing phase argument given by the
prosecution. Specifically, the prosecution’s reference to
the defense witness, Cleola Moore, as a “cook.” See
Moore v. Commonwealth, 634 S.W.2d 426 (Ky.
1982)(the personal opinion of the prosecutor as to the
character of a witness is not relevant and is not
proper.) Additionally, the Commonwealth’s reference to
the crimes committed by Mr. White as “genocide” and
the references to Roger Ellington telling the truth on
the witness stand. These comments were improper, the
court should have declared a mistrial, or at least
admonished the jury as to the improper nature of the
comments and instructed them not to consider the
comments.
26. The numerous improper statements made by the
prosecutor during closing arguments, both during the
guilt/innocence, as well as the sentencing portion of the
trial, made the entire proceedings fundamentally
unfair and violated the defendant’s due process rights
pursuant to Section 2 of the Kentucky Constitution and
the Due Process Clause of the 14th Amendment to the
United States Constitution. As a result, the defendant’s
motion for a mistrial should have been granted. At the
very least an admonition should have been provided by
the court and, despite the defendant’s objections and
request, that admonition was not given.
27. In the event this court were to determine that
each of the individual grounds for a new trial and/or
judgment of acquittal is not sufficient standing alone to
warrant a new trial, the cumulative error that was
created due to each of these specific grounds constitute

App. 99
a reason, in and of itself, sufficient to require the
defendant receive a new trial. See Funk v.
Commonwealth, 842 S.W.2d 476 (Ky. 1992).
28. The death sentence should have been removed
from the jury as a possible punishment in this matter
based upon the recent opinion of the United States
Supreme Court in the case of Freddie Lee Hall v.
Florida, rendered May 27, 2014.
The Court in Hall v. Florida, supra, made it more
difficult for states to execute prisoners that claim an
intellectual disability. The Court ruled that the State
of Florida must apply a margin of error to IQ tests
since medical guidelines permit IQ scores to reach as
high as 75 based upon the margin of error that exists
in the testing. The Court had previously ruled in Atkins
v. Virginia, 536 U.S. 304 (2002), that a state cannot
execute people with intellectual disabilities because it
violates their Eighth Amendment rights against cruel
and unusual punishment. Florida’s intellectual
disability statute created a threshold IQ score of 70 to
define “intellectual disability’‘ or “mental retardation”
for the purposes of death penalty eligibility.
The Court in Hall indicated that a “(i]ntellectual
disability is a condition, not a number.” Hall, supra. As
such, the Florida court will be required to consider the
standard error of measurement when determining
whether a defendant satisfies the clinical definition of
intellectual disability and, therefore, protected from
execution.

App. 100
Kentucky’s law is almost identical to the Florida
statute that was ruled unconstitutional by the Hall
court. KRS 532.130 states
(1)

An adult, or a minor under eighteen (18)
years of age who may be tried as an adult,
convicted of a crime and subject to sentencing
is referred to in KRS 532.135 and 532.140 as
a defendant.

(2)

A defendant with significant subaverage
intellectual functioning existing concurrently
with substantial deficits in adaptive behavior
and manifested during the developmental
period is referred to in KRS 532.135 and
532.140 as a seriously mentally retarded
defendant. “Significantly subaverage general
intellectual functioning” is defined as an
intelligence quotient (I.Q.) of seventy (70) or
below.

Consequently, the same analysis used in the Hall
opinion could, and should, be used in the case at bar
based on previous testing that the Defendant, Larry
Lamont White, has a history of testing that tests him
with a seventy-six (76) IQ, which the tester indicated
was borderline intelligence.
Curiously, the test that was performed on Mr.
White was conducted in 1971. That testing additionally
indicates that Mr. White received a head injury in 1967
from being hit by a car. This evidence must be heard
and the Court must make a ruling to determine
whether Mr. White is even eligible to receive a death
sentence based upon his borderline intelligence testing

App. 101
and evidence that he may have sustained a head injury
during his childhood.
As such, the Defendant requests that the Court
enter the attached order setting a hearing to determine
whether Mr. White’s IQ is in fact within the standard
set by the United States Supreme Court in Hall v.
Florida, supra. Additionally the Defendant requests
that the Court determine that KRS 532.130, and the
sentencing scheme set forth therein, is
unconstitutional. Finally, the Defendant requests that
the Court preclude the death penalty as a possible
sentence that could be imposed against him in this
matter.
WHEREFORE, the defendant moves the Court to
grant him a new trial or judgment notwithstanding the
verdict and also moves the Court to grant him a
hearing on this motion.
Respectfully Submitted,
Mark G. Hall
119 S. 7th Street 4th Floor
Louisville, Kentucky 40202
(502) 589-0761
(502) 584-0656 Fax
Darren Wolff
2615 Taylorsville Road
Louisville, Kentucky 40202
BY /s/ Mark G. Hall

App. 102
CERTIFICATE OF SERVICE
I hereby certify that a true copy of here of has been
served via U.S. Mail, upon the following persons on this
the 4th day of August 2014:
Hon. Mark Baker
Assistant Commonwealth Attorney
514 West Liberty Street
Louisville, Kentucky 40202
/s/ Mark G. Hall
MARK G. HALL

App. 103

APPENDIX G
JEFFERSON CIRCUIT COURT
DIVISION TWO (2)
JUDGE JAMES M. SHAKE
NO. 07-CR-4230
[Filed July 28, 2014]
_______________________________________
COMMONWEALTH OF KENTUCKY
)
)
PLAINTIFF
)
)
vs.
)
)
LARRY LAMONT WHITE
)
)
DEFENDANT _________________________)
************
MOTION TO EXCLUDE DEATH AS POSSIBLE
PUNISHMENT BASED UPON DEFENDANT’S
PREVIOUS BORDERLINE IQ TESTING AND
RECENT OPINION OF SUPREME COURT IN
HALL V. FLORIDA
Comes the Defendant, Larry Lamont White, by
counsel, and hereby moves the Court to enter an Order
precluding the death sentence as a possible
punishment in this matter based upon the recent

App. 104
opinion of the United States Supreme Court in the case
of Freddie Lee Hall v. Florida, rendered May 27, 2014.
(Opinion Attached in its entirety as Exhibit A.)
The Court in Hall v. Florida, supra, made it more
difficult for states to execute prisoners that claim an
intellectual disability. The Court ruled that the State
of Florida must apply a margin of error to IQ tests
since medical guidelines permit IQ scores to reach as
high as 75 based upon the margin of error that exists
in the testing. The Court had previously ruled in Atkins
v. Virginia, 536U.S. 304 (2002), that a state cannot
execute people with intellectual disabilities because it
violates their Eighth Amendment rights against cruel
and unusual punishment. Florida’s intellectual
disability statute created a threshold IQ score of 70 to
define “intellectual disability’‘ or “mental retardation”
for the purposes of death penalty eligibility.
The Court in Hall indicated that a “[i]ntellectual
disability is a condition, not a number.” Hall, supra. As
such, the Florida court will be required to consider the
standard error of measurement when determining
whether a defendant satisfies the clinical definition of
intellectual disability and, therefore, protected from
execution.
Kentucky’s law is almost identical to the Florida
statute that was ruled unconstitutional by the Hall
court. KRS 532.130 states
(1)

An adult, or a minor under eighteen (18)
years of age who may be tried as an adult,
convicted of a crime and subject to sentencing

App. 105
is referred to in KRS 532.135 and 532.140 as
a defendant.
(2)

A defendant with significant subaverage
intellectual functioning existing concurrently
with substantial deficits in adaptive behavior
and manifested during the developmental
period is referred to in KRS 532.135 and
532.140 as a seriously mentally retarded
defendant. “Significantly subaverage general
intellectual functioning” is defined as an
intelligence quotient (I.Q.) of seventy (70) or
below.

Consequently, the same analysis used in the Hall
opinion could, and should, be used in the case at bar
based on previous testing that the Defendant, Larry
Lamont White, has a history of testing that tests him
with a seventy-six (76) IQ, which the tester indicated
was borderline intelligence.
Curiously, the test that was performed on Mr.
White was conducted in 1971. (Attached as Exhibit B.)
That testing additionally indicates that Mr. White
received a head injury in 1967 from being hit by a car.
This evidence must be heard and the Court must make
a ruling to determine whether Mr. White is even
eligible to receive a death sentence based upon his
borderline intelligence testing and evidence that he
may have sustained a head injury during his childhood.
As such, the Defendant requests that the Court
enter the attached order setting a hearing to determine
whether Mr. White’s IQ is in fact within the standard
set by the United States Supreme Court in Hall v.

App. 106
Florida, supra. Additionally the Defendant requests
that the Court determine that KRS 532.130, and the
sentencing scheme set forth therein, is
unconstitutional. Finally, the Defendant requests that
the Court preclude the death penalty as a possible
sentence that could be imposed against him in this
matter.
Respectfully Submitted,
Mark G. Hall
119 S. 7th Street 4th Floor
Louisville, Kentucky 40202
(502) 589-0761
(502) 584-0656 Fax
Darren Wolff
2615 Taylorsville Road
Louisville, Kentucky 40202
BY /s/Mark G. Hall
CERTIFICATE OF SERVICE
I hereby certify that a true copy of hereof has been
served via hand delivery, upon the following persons on
this the 28th day of July 2014:
Hon. Mark Baker
Assistant Commonwealth Attorney
514 West Liberty Street
Louisville, Kentucky 40202
/s/ Mark G. Hall
MARK G. HALL

App. 107

APPENDIX H
May 21,st 2019
ANDY BESHEAR
Attorney General of Kentucky
1024 Capital Center Drive
Frankfort, Kentucky 40601
RE:

White v. Commonwealth, 586 U.S. (2019)
2014-SC-000725; On Appeal from Jefferson
County Circuit Court, 2007-CR-004230

Dear Mr. A. Beshear:
I am writing this letter in regard to the brief that I
received from Jeffrey A. Cross and Emily B. Lucas,
regarding “Intellectual Disability.”
I first like to say that this was something filed
without my knowledge and that these are false merits.
I was never apprised of existent litigation and had not
until here lately received any copies of this litigation
about me being retarded, this news was very
astonishing to me.
DPA, Ms. Susan Jackson Balliet, and Erin Hoffman
Yang was appointed to file my direct appeal by Mr.
Timothy G. Arnold knowing that Ms. Balliet is the wife
of one of the Jefferson County prosecutors working in
that office which to me is a conflict, and she was the
one who filed this cert. with Erin H. Yang. After it was
filed Ms. Balliet retired and Ms. Schmidt replaced her.

App. 108
Once my direct appeal was sabotage I did not want
any more help from Susan or Erin Yang and I thought
that I made that clear, but they went behind my back
and made sure I would not get a fair appeal, and all I
want is a fair opportunity for post-conviction 11.42, but
my lawyers cannot start because of this “retarded
foolishness.”
After reading Mr. Cross’s brief I feel that he actly
understand my view point because if given the chance
I would argue the same way, and I can’t see how Susan
and Erin are now psychologies instead of lawyers. Sir,
I have been misrepresented from trial throughout my
whole proceeding, and I was not fully represented by
Ms. Balliet or Yang.
On July 28, 2014 I never filed anything because
after sitting through a whole trial of no evidence and
being convicted I was not going in another or continue
frame up.
I just want Erin H. Yang and Kathleen Schmidt
removed so that I can try and prove my innocence,
because right now this is a miscarriage of justice the
way I am being treated. I just want to heard while I
have been misrepresented by D.P.A. I do believe that
its your duty to make sure that I am fairly represented
and I was not.
Sincerely
Larry Lamont White

App. 109

APPENDIX I
SUPREME COURT OF KENTUCKY
CASE NO. 2014-SC-725-MR
[Filed July 1, 2019]
_________________________________________
LARRY LAMONT WHITE
)
)
APPELLANT
)
)
V.
)
)
COMMONWEALTH OF KENTUCKY
)
)
APPELLEE______________________________ )
******
MOTION TO WITHDRAW APPEAL COUNSEL FOR
THE FAILURE TO INFORM THE MAIN PERSON
ABOUT THE SUBSTANCE OF THIS CERTIORARI,
BUT MISLEAD ME
Comes now the appellant LARRY LAMONT
WHITE, pro se, and respectfully moves this Honorable
Court to please grant appellant motion and allow
appellant to proceed with his other chore or avenue
which is my post-conviction team.
I never authorize these attorney’s to label me guilty,
because I’m not guilty of this crime.

App. 110
The question presented to this court is whether
these attorney’s acted in the best interest of the client
by pleading him guilty of a crime that he never
committed, this is a serious issue they have stated to
the U.S. Supreme Court and back to this court where
I did not receive a favorable ruling.
This was not their right to make a plea for me
without my knowledge, and please don’t forget Susan
Balliet should not have been placed on my appeal any
way. I don’t understand why nothing is being said
about this conflict of interest, because of this conflict is
why I am being put in this situation today.
I am a layman of the law, but I know that I have a
right to a direct appeal which my appeal was sabotage
by Ms. Balliet for Mr. Balliet one the jefferson county
prosecutor the other appointed as appellant’s attorney.
I can see that the six amendment was very much
violated here in WHITE v. Commonwealth, 2014-SC725-MR, I really should receive a do over, but since I
was appointed prosecutors instead of defense attorney’s
I am asking in so many words for help from this Court
to make fair, as I’ve stated before my situation is a
miscarriage of justice.
These attorney’s in their brief also criticize my way
of filing motion’s I don’t have any currency to purchase
a typewriter do that make me a retard?
When I have prosecutor’s disguising as defense
attorney’s, some one needs to look into these attorney’s,
because Susan J. Balliet and Erin H. Yang violated my
six amendment right, because I never had the

App. 111
assistance of counsel for my defence at trial or direct
appeal.
WHEREFORE, the appellant asks this Court to
take the words of mine and not allow this intellectual
disability issue to stand. I am asking this Court to
dismiss the issue, because it was argued without my
approval and the law states that these attorney’s are
my assistance therefore they were obligated to inform
appellant of their plan to cross me out.
Respectfully submitted
Larry L. White
Appellant of this case
I am asking this court clerk to please send copied to
each individual that should have one, I thank you very
much.
NOTICE AND CERTIFICATE OF SERVICE
On this 24th day of June, 2019, this document was
filed in the office of the clerk of the Supreme Court.

App. 112

APPENDIX J
KENTUCKY SUPREME COURT
CASE NO. 2014-SC-000725
[Filed July 5, 2019]
_________________________________________
LARRY LAMONT WHITE
)
)
APPELLANT
)
)
V.
)
)
COMMONWEALTH OF KENTUCKY
)
)
APPELLEE______________________________ )
RESPONSE IN OPPOSITION
OF DEFENSE COUNSEL
******
Comes now the real party in interest LARRY
LAMONT WHITE, pro se, and asking this court to
please grant my wishes in this proceeding.
After reading the motion of Ms. Yang and Ms.
Schmidt there is a clear understanding of conflict of
interest between DPA counsel and myself, because
everything they are filing is against my wishes, but
they continue to say that I am in agreement with them
and I am not, it was my position to write the Attorney
General ANDY BESHEAR in the first place, because

App. 113
its his duty to make sure that justice is faithfully
carried out in this Commonwealth.
Like I stated in the beginning of these proceedings
the DPA appointed Susan J. Balliet and Erin H. Yang
to represent me knowing that Susan and John Balliet
were husband and wife, John represent the Jefferson
County prosecution office and Susan, represent DPA.
She should not have been appointed to my case.
My direct appeal was sabotage by Susan and Ms.
Yang and I pray that they are not allow to continue
this injustice. Because I am black don’t mean that I’m
retarded, give me the same standard of the law as
everybody else, I don’t know why I am perceived in this
manner. I am innocent of these charges and don’t
understand where this intellectual disable “foolishness”
come from, they are trying or have toss my real issue
aside, instead of representing me like they do their
white clients.
The Commonwealth never inserted themselves into
anything. I wrote them asking that these DPA
attorney’s be stopped from pleading me guilty of these
charges, my plea was not guilty and how these DPA
direct appeal lawyers can now plead me guilty?
They are not entitle to write the court and say that
I’m guilty its up to the client, and for Susan, Yang and
Schmidt to go behind my back and tell the U.S.
Supreme Court that I am guilty is a miscarriage of
justice, I did not commit this crime and if it takes
reviewing my whole case then I am asking that it be
done.

App. 114
The Commonwealth has also failed me with their
responsibility to be the chief law officer of the state and
before the direct appeal took place the assistance
attorney general should had properly reviewed all trial
tapes, pretrial, Suppression hearing which would have
revealed error throughout the trial and the trial was
design to deny me a fair trial.
Last but less, the Sixth Amendment to the Federal
Constitution guarantee the accused in a criminal
prosecution “the assistance of counsel” for his/her
defense, which means effective assistance, Gideon v.
Wainwright, 572 U.S. 335. “Assistance,” aide, help not
take control this ordinarily refers to employee whose
duties are to help his client, to whom the attorney’s
must look for authority to act, which means that Susan
and Erin or Schmidt acted on their own without my
approval.
WHEREFORE, the Appellant opposes the motion
filed by DPA attorney’s Erin H. Yang and Kathleen K.
Schmidt on writ of certiorari and motion to response in
opposition be dismiss and that motion for the
Commonwealth be granted. Appellant is more than
able to make my own decision.
I pray that this Honorable court please grant this
pro se motion so appellant can move on to prove my
innocence, something Ms. Yang or Schmidt has failed
to do repeatedly in this matter.
Respectfully submitted
Larry L. White

App. 115

APPENDIX K
COMMONWEALTH OF KENTUCKY
KENTUCKY SUPREME COURT
CASE NO. 2014-SC-000725-MR
[Filed August 16, 2019]
_________________________________________
LARRY LAMONT WHITE
)
)
APPELLANT
)
)
V.
)
)
COMMONWEALTH OF KENTUCKY
)
)
APPELLEE______________________________ )
APPELLANT’S RESPONSE TO THE DPA’S
MOTION ON TRYING TO SPEAK FOR ME
******
Comes now appellant LARRY LAMONT WHITE,
pro se, and respectfully moves this Honorable Court to
allow my voice to be heard.
As stated before my United State Constitutional
rights has been violated by the DPA, Stating as
Following:
1.) Jefferson Circuit Court put in the request for
DPA to appoint counsel for my direct appeal in which

App. 116
I was framed of this murder and rape which was never
proven, (The Murder or Rape) at trial.
2.) Mr. Timothy Arnold took it upon himself to
appoint Susan J. Balliet the wife of John Balliet who is
a Jefferson County Commonwealth attorney who works
hand and hand with Mark Baker the individual who
frame me of this murder and rape that I did not
commit, and Susan Balliet made sure that I did not
receive a reveral which I should have received.
This is clearly a conflict between this DPA and
myself, and after Susan J. Balliet sabotage my direct
appeal, she put together this intellectual disability
foolishness that we are talking about right now, so
what Susan did is still continuing. This is why the
conflict will always exist as long as Timothy Arnold is
a director of DPA.
4.) As for the way Mr. Arnold want to twist the motion
it all comes down to him appointing Susan J. Balliet to
represent me on direct appeal. Erin H. Yang help
Susan sabotage my direct appeal and if I did want new
counsel to represent my case it should be permitted,
and not by DPA.
5.) If Mr. Arnold was trying to be fair, it seem that he
would want to make it right by any means necessary,
but instead he’s making arguments like I should be
happy about what he did in destorying my life.
6.) If you, (which I know you don’t) have information
that can help you to state your claim better then let
everyone hear it, because Susan and Yang only spoke
with me at most three times since they were appointed
to my case and all Susan did was lied to me I knew that

App. 117
she wasn’t any good and Yang just set quiet and when
she was asked a question she would give a false
answer. I never trust them and if I knew that Susan
was the wife of any one in the prosecution office I
would have done just what I’m doing right now, to stop
DPA from representing me at first.
7.) You, Mr. Arnold have sabotage my case enough, I
am on death row for a crime that I did not commit and
thanks to you I can’t prove my case until I am dead and
you have the guts to try and twist everything on me.
Well, this is the way that I feel it should go, I am
waiving my attorney client confidential so you can tell
this Honorable Court what you feel they should know,
because like the Commonwealth has stated, I will
never participate in anything that deals with the DPA,
its as simple as that.
WHEREFORE: For the foregoing reasons, Appellant
asks that this court deny anything that the
Department of Public Advocacy has filed relating
intellectual disability and conflict, I pray that this
Honorable court deny all of their motions at this time.
Respectfully submitted
Larry L. White
LARRY LAMONT WHITE
KENTUCKY STATE PENITENTIARY
266 WATER STREET
Eddyville, KENTUCKY 42038

App. 118
NOTICE
This response will be filed in the Kentucky Supreme
Court clerk office on Monday, August 12th 2019.

App. 119

APPENDIX L
KENTUCKY SUPREME COURT
CASE NO. 2014-SC-725-MR
[Filed January 24, 2020]
_________________________________________
LARRY LAMONT WHITE
)
)
APPELLANT
)
)
V.
)
)
COMMONWEALTH OF KENTUCKY
)
)
APPELLEE______________________________ )
MOTION ASKING THIS HONORABLE COURT TO
RULE ON THE INTELLECTUAL DISABILITY
ISSUE
Comes the appellant, LARRY LAMONT WHITE,
suo nomine sui juris and request this Honorable Court
to please make a ruling on this issue of “Intellectual
Disability” and “The conflict of interest,” with the DPA,
because after all how can this agency be trusted when
they have cheated me before, and now in this court
going against my wishes.
Since this matter has been in this court DPA has
not had any contact with appellant, which Mr. Timothy
Arnold just happen to be in charge of, now I have not
heard anything from post-conviction attorney’s that

App. 120
was appointed to represent appellant, this has stopped
since this matter has been going on. With this being
said I am asking also that this court please appoint
“pro bono” representation in all further legal
proceedings because appellant do not have any
confidence in the DPA to make any more appointments
in my case.
Mr. JEFFREY A. CROSS has been remove from this
matter and I have not been enlighten of his
replacement.
Its really something when the appellant rely on the
Commonwealth rather than the DPA.
WHEREFORE: Appellant pray that this Honorable
Court grant the motion that DPA attorney’s can’t force
appellant to accept something not in appellant’s best
interest. I am not suppose to be on death row.
Submitted by
Larry L. White

